      General Services Administration
        Office of Inspector General




Report to the Congress

    October 1, 1981 - March 31, 1982




  Made Pursuant to Section 5 of Public Law 95-452
                   May 1, 1982
                   General        Office of
                   Services       Inspector
                   Administration General     Washington, DC 20405




 APR 30 1982


Honorable Gerald P. Carmen
The Administrator
General Services Administration
Washington, DC 20405

Dear Mr. Carmen:

The following semiannual report of the Office of Inspector
General for the period October 1, 1981, through March 31, 1982,
is submitted pursuant to the Inspector General Act of 1978
(Public Law, 95-452, Section 5(b)).  In accordance with the
law, you are required to submit this report to the Congress
within 30 days, together with any comments you deem appropriate.,

The report is divided into two parts.  The first part describes
the major audit and investigative results of the Office of
Inspector General for the 6-month reporting period, and is
organized to conform to the specific requirements of the
Act. The second part di scusses the organiza tion and staffing
of the Office of Inspector General and summarizes the operations
of the Office during the period.

As evidenced by the matters detailed in the report, I believe
the Office has 'made significant contributions during the
period. We identified a number of major program areas within
the General Services Administration which presented opportunities
for improving program results with increased economy and
efficiency.  In these and other program areas, recommendations
were made to reduce vulnerability to fraud, waste, and abuse.

Top management has been both receptive and responsive to our
recommendations. Your support has brought us closer to our
mutual goal of improved operations.

Sincerely,




    ~
           ~a~-/
J S    ~     SICKON
I     pector General

Enclosure
                           TABLE OF CONTENTS



Part 1 - REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL ACT
         FOR THE PERIOD OCTOBER 1, 1981, TO MARCH 31, 1982


         1.   OVERVI EIN                                           1


       11.    SIGNIFICANT PROBLEMS, ABUSES, DEFICIENCIES,
              MJD RECOMMENDATIONS FOR CORRECTIVE ACTION
              DURING THE CURRENT REPORTING PERIOD                  6


              A.   Space Acquisition and Utilization               6
              B.   Buildings Management                           13
              C.   Supply Procurement and Distribution            14
              D.   'rransportation Services                       16
              E.   Surplus and Stockpile Material                 17
              F.   Arch ivaI Services                             18
              G.   Financial ~1anagement                          19


      I II.   STATUS OF SIGNIFICANT RECOHMENDATIONS HADE
              IN PREVIOUS REPORTS ON VTHICH cORREcrrIvE
              ACTION HAS NOT BEEN COMPLETED                       21


       IV.    MATTERS REFERRED FOR CRIMINAL, CIVIL AND/OR
              ADMINISTRATIVE ACTION--INSPECTOR GENERAL
              SUBPOENAS                                           26

              A.   Criminal Re rrals                              26
              B.   Invest    tive Referrals                       26
              C.   Criminal Prosecutions                          26
              D.   Civ    Referrals and Recoveries                28
              E.   Administrat     Referrals                      29
              F.   Suspension and Debarment Referrals             29
              G    Signif ant Criminal Cases                      31
              H.   Subpoenas                                      32


        V.    UNREASONABLE REFUSAL OF INFORMATION OR ASSISTANCE   33


       VI.    REVIEW OF LEGISLATION AND REGULATIONS               34




                                  i
       VI I.   REPORTS ISSUED BY THE OFFICE OF INSPECTOR GENERAL
               FOR THE PERIOD OCTOBER 1, 1981, TO MARCH 31, 1982    37


Part 2 - OFFICE OF INSPECTOR GENERAL ACTIVITIES FOR THE
         PERIOD OCTOBER 1, 1981, THROUGH MARCH 31, 1982             38

         I.    OFFICE OF INSPECTOR GENERAL ORGANIZATION AND
               STAFFING                                             38


        II.    OPERATIONS AND STATISTICS                            41


               A.   Office of Audits                               41
               B.   Office of Investigations                       44
               C.   Office of Counsel to the Inspector General     46
               D.   Office of Policy, Plans and Evaluation         47
               E.   Interagency Efforts Through the President's
                    Council on Integrity and Efficiency (PCIE)     48


APPENDIXES


          I.   AUDIT REPORT REGISTER                               ~50




        II.    INSPECTION REPORT REGISTER                          84




                                ii
                       Part 1

REPORTING REQUIREMENTS OF THE INSPECTOR GENERAIJ ACT
 FOR THE PERIOD OCTOBER 1,1981, TO MARCH 31,1982
I.   OVERVIEW


Significant Activities

During the six month reporting period the Office of Inspector
General (OIG) identified a number of major areas within the
General Services Administration (GSA) in which there was
opportuni ty for achi eving s ignif ican tly greater economies and
efficiencies, improving program results, and reducing vulnerability
to fraud.   These matte rs have been reported to top management
which, in turn, has been both receptive and responsive to
our recommendations.

Space Acquisition and Utilization -- This function was
one area in which opportunities for economy and efficiency
existed. The major deficiencies found were:    (1) operation of
the Construction Services Fund allowed the expenditure of
funds for purposes other than those for which they were
appropriated; (2) improper administration of a construction
contract for a new Federal buildi ng resulted in a waste of
funds and unnecessary costs; (3) GSA's program for leasing
Government space presented unrealized opportunities for
greater economy and effi     CYi and (4) the controls governing
the administration of repair and alteration contracts were
not properly enforced resulting in overpayments by the Government.
These matters and others are discussed in the space acquisition
and utilization sect     on pages 6 through 13 of this report.

S      Procurement and Distribution -- These programs also
          oppor un t es     s gn    cant improvement. We
found that: (l) elimination of a plywood repackaging program
will save the Government millions of dollars annually; (2) the
depot modern ation program is not cost     fective because
the mechanized systems do not increase productivity but
rather increase operating and transportation costs; and
(3) external reviews of multiple award contracts identified
defective pricing vio tions which will yield significant
savings and recoveries to the Government.   Recommendations
concerning these findings, discussec1 on pages 14 and 15, have
been favorably received by management.

                          - These programs also of fered
                         ntial Government savings. Specific
initiatives included: (1) a review which disclosed that
purchasing vehicles is more cost-effective than leasing
them; (2) a joint venture wi th the Transportation and Public
Utilities Service through which Government funds are being
recovered from airlines due to unused or partially used
airline tickets associated with official travel; and (3)
recommendations to achieve greater economy and efficiency
Government-vdc1e through contracting for express delivery




                              1
services.  Detailed information on these areas can be found
on pages 16 a'nd 17 of this report.

Surplus and Stockpile Material -- vJe found that significant
improvements could be made in the agency's excess personal
property program. r1any items are declared excess even though
they could be further utilized by Government elements before
entering the donation program. This matter is discussed on
page 17.
Archival Services -- An audit of the National Archives and
Records Service (NARS) program for preserving intrinsically
valuable historical documents disclosed that many of the
nation's most valuable documents had not been treated to
preve nt deterioration. Moreover, environmental condi tions
within the National Archives Building were found to be
unacceptable. This matter is discussed on page 18.

Financial Management -- Reviews in this area disclosed serious
weaknesses in accounting systems, procedures, and related
controls. The accounting weaknesses included improper recording
of obligations and deficiencies in maintaining imprest
funds.   Intern  control weaknesses included inadequate
procedures for systems development and implementation.
These deficiencies result   in inaccurate reporting to Congress,
and presented opportuniti    for  aud, waste and abuse.
These items are discus ed on pages 19 and 20 of this report.



As required by the Ins ctor Gener    Act, Section III discusses
signif ant problems ad   essed in   ior semiannual Inspector
General reports and the man     nt actions t      to resolve
them.     cif    items    te to Government Real Prope
Used              Use Non-Ace        of a Value Engine    ng
Change Pr     aI, Misma     nt         Lease Escala     Area,
ADP    tems, and Excessive Ene    Use, among others.     ese
areas and others are discussed on pages 21     ough 25.
During the period we conti      our emphasis on aggressively
pursuing and prov ing direct support in crimi      , civil, and
administrative actions     inst those firms or persons who
have de auded or attempted to     fraud the Government. We have
also used our ubpoena power, where necessa     ,to obtain
informat n crit al to protecting the Government'        terests.
We have vigorou    pushed      addit       emphasis on debarments
or s    ns ns of firms     th a history of    audu nt conduct
or otherwise unacceptab          ound or per rmance     This
area is discussed on pages 26 through 32.

Finally, we have rewed and       loped a number of legislative
and regulatory initiat  s which would signif antlyaffectGSA
operations. These matters are discus ed on pages 34 through 36.



                               2
- Issued   4 audit     rts, 163 covering GSA internal
  operations and 231 involving GSA contractors.

- Reviewed over $318 million in costs and questioned
  over $   m 1

- Recommended cost avoidance of over $29 million in
  internal management operations.

- Issued 18 ins ct ion reports wi th potential cos t avoidance
  and/or recover es of over $2 million.

- Opened 280 new invest       tions and closed 420.

           52 cases invol         ng 76 subjects to prosecuting
  authorities.

              c                     Federal and State agencies for
          inves      ion.

                                   rmations and 13 convlctions
                                  ed.

                             ing 11 subjects for     1 action
                                   with potential re ove
                               on.

                                   ng 114 subjects to management


                       omme ding sus         ns       35        e


                              nding debarment of 23 contractors.

                            sus     ns   ns and 62 contractor


      i                      on 19 legislative and numerous
  r   u
                      to secu e informa tion vi tal to our


                                     and letters, 35 GAO referrals,


  Part    pated in 10 projects initiated by the President's
  Counc    on Int   ity and Efficiency~




                              3
   cial Initiatives

One area given high priority during this reporting period
has been to improve the coordination and communication between
OIG activities, management and employees in an effort to
combat fraud and improve the effectiveness of GSA's operations.

A GSA Council program was instituted on March 24, 1982, to
integrate the knowledge, experience and concerns of GSA
managers and employees ""ith the efforts of the OIG to combat
fraud and improve the economy and efficiency of GSA's programs.
The program e stabli shes the GSA Council and Act ion Commi t tees
to carry out the charter. Through the GSA Council, OIG
personnel, who have the skills to pinpoint programmatic
control problems, and management officials, who possess an
indepth knowledge of GSA's programs, are brought together to
form Action Committees.    These committees meet to identify
and review problem areas \vithin GSA and make recommendations
to the GSA Council and the Administrator on ways to deter
fraud and improve the effectiveness of GSA's service to the
Federal sector.

Another method initiated to improve coordination and communication
between OIG and management has been increasing the number
and frequency of key management meetings.     Each week, an OIG
representative attends the Administrator's debriefing on
more than 400 priority projects se cted for tracking because
of their potential for eliminating waste, enhancing savings,
assur ing qual i ,provid i ng informa tion, or expedi ting proj ect
completion. Each month, OIG managers attend GSA General
Management Reviews in wh h the detailed status of major
program accomplishments and problems are presented by each
of the Service and Staf f Of ces.

In a similar fashion, the OIG has been conferring with Service
and Staff Office heads and    ionaI Administrators on the reviews
scheduled for their res  ctive program areas. The information
gained from these meetings will be used to develop audit and
program review plans which g    consideration to management's
problems and concerns.

Coordination is     so being enhanced by the exchange of written
information. An Audit Report Library section is being established
wi th    the GSA library so that audi t reports are readily
availab     to GSA managers, empl   es, and members of the public.
Also, we are increasing the type of information and assistance
given to management. Each we      we provide      Administrator with
a summary of significant act ities and, as        uested, we provide
spe ial assistance to       r GSA elements.   In th   regard, we
      uated GSA's Standards    Conduct violations    r the Special
Council for Ethics.




                                4
The OIG plans to provide a wide range of vulnerabili ty assessment
materials to management to assist them in conducting the
inhouse vulnerability assessments and internal control reviews
required under OMB Circular A-123.   Part of this effort is
the development of a computerized inventory of GSA programs
which will be ~ade available to management. This inventory
will prioritize GSAls programs regarding their potential for
fraud, waste, and abuse; dollar magnitUde; sensitivity to
agency image; degree of historical problems; etc.

The importance of gaining the support and input of GSA employees
has not been overlooked in the OIG's efforts to improve
coordination within the agency_  A personalized brochure is
being developed to make GSA employees more aware of (1) their
personal responsibilities to combat fraud and program in ficiencies,
and (2)     role of the OIG in preventing fraud and improving
agency operations. This brochure will also be given to each
new employee as part of the initial orientation program.
Further, GSA managers and employees are being given Integrity
Awareness Training by representatives from the OIG, and
group meetings are being held throughout the country explaining
the responsibilities of the OIG.

Finally, seven OIG employees have been selected to serve
as members of the "GSA Young Executives Group." This group
attends   riodic meetings   th the Administrator to   scuss
agency concerns, possible courses of action, and future
direct ns for GSA.




                              5
II.    SIGNIFICANT PROBLEMS, ABUSES, DEFICIENCIES, AND
       RECOMMENDATIONS FOR CORRECTIVE ACTION DURING THE
       CURRENT REPORTING PERIOD

As required by Section 5(a)(1) and 5(a)(2) of the Inspector
General Act of 1978, following is a description of significant
problems, abuses, deficiencies, and recommendations for
corrective action during the period October 1, 1981, to
March 31, 1982.

      A.   Space Acquisition and Utilization

Inadequate and Improper Financial Management of the Construction
Services Fund

Our revi ew of the Cons truct ion Services Fund (CSF) disc losed
serious improprieties relative to its fiscal management.
Specifically, the CSF was being operated in a manner which
permitted the expenditure of funds for purposes other than
those for which they were appropriated, thus violating
Section 3678 of the Revised Statutes (31 U.S.C. 628) and
Section 1210 of the General Appropriations Act of 1951
(31 U.S.C. 628-1).    Further, it was shown that the official
accounting.records for the Federal Buildings Fund (FBF) and
Transfer Allocation Appropriations did not reflect actual
costs incurred within the CSF. Because of these problems,
violations of Section 3679 of the        sed Statutes, Anti-
Deficiency Act (31 U.S.C. 665), the Public Buildings Act of
1959 (40 U.S.C. 606), and provisions of the FY 1976 Appropriation
Act, Public I,aw 94-91, had occurred but remained undetected.

The CSF fixed-price advance financing concept of operations
provided for the offsetting of profits and losses on individual
projects within the CSF without regard to the initial source
of funds.  In effect, profits and losses for indiv ual
projects were being pooled, however, actual CSF expenses
were not subsequently allocated and reported by project for
each appropriation.   Further, the official accounting and
reporting procedures were not in accordance with principles
and standards prescribed by the General Accounting Office (GAO).

On March 12, 1982, we issued our final audit report which
included recommendations directed at four major functional
areas within the GSA. To the Administrator, we recommended
that: (1) a report be submitted to the President, through the
Director of the Office of Management and Budget, and to the
Congress in accordance with 31 U S.C. 665, regarding the Anti-
Deficiency Violations; (2) the Congress be notified of the need
for the complete reconciliation and analysis of all Public
Buildings Service (PBS) accounts   fected by the CSF and
subsequently be provided the complete results to include




                                 6
corrective act                    to prevent the recurrence of
fiscal improprieties such as ttose identified in this report;
and (3) the Assistant Administrator for Plans, Programs, and
Financial Management be directed to immediately place the
ac coun ting for the CSF (includi ng proj ect cos ts) under accoun t ing
control in accordance with the principles and standards
prescribed by the General Accounting Office.

To the Assistant Administrator for Plans, Programs, and
Financial Management, we recommended that:     (1) a system of
accounting for the CSF be adopted which complies with statutory
and other requirements of allocating and reporting expenditures
to specific projects and appropriation accounts; (2) action be
initiated to provide for accrual accounting within the FBF
and Transfer Allocation Accounts for des ign and construction
cos ts; and (3) act ion be taken to prov ide for the full
recognition of actual CSF costs within the official FBF
accoun ting records in accordance wi th procedures prescribed
by the GAO.   Such action hould include the establi hment of
sound financial policies, practices, and procedures       ative
to      funding and operation    needs of      CSF, and hould
specific ly pr          movemen of funds from one     os ctus
proj ct to another

To     Assistant                      r Plans, Programs,  nd
Financial Man                          ss    r, Public Bu d ngs
                                     indepth reconciliat n
                                            true fund status f




                                          Service, we          nded

                                                              fund




                                      r   ans, Programs, a
                               in     necessa   funds from
                               location author ty or thr
                                to the Congr

Management ag eed wi hour  indings and recommendat     , and
         initi ted recon   at    actions          r, a task
           b n establi    by the Commi s     , PBS to
s         act ns neces ry      the implementation     our
recommenda tions




                                 7
An                             GSA's Leasi           ram

Based on an analysis of over 40 audit and inspection reports,
the OIG prepared a compendium deta ing the problems identified
in GSA's leasing program over a period of several years.
The reports reviewed various aspects of the procedures and
policies affecting GSA in carrying out its responsibilities
when awarding and administering leases.  A majority of these
reviews, which were done on a nationwide basis, were performed
during fiscal year 1981.  At that time, the annual budget
for the leasing program was about $680 million, encompassing
approximately 5,500 leases covering about 90 million square
feet of space.

Our      rt, issued on ~1     1,1982, disclosed that:    (1) it
took 366       to fill a space request which, according to PBS
objectives, should be satisfied in 200 days; (2) the extensive
use of hort term leases incre            number of leases to
such a      ee as to preclude ef         administration - 87 percent
of all    ases awarded between 1         1980 were for 5 years
or less; (3) GSA did not know how much space        agency
occupi    - as of Hay 1, 1980,      inventory       ce occupied
by each agency was about 51     rcent accurate;     leases
that     ired were not replaced in a timely manner when occupancy
was to cant       and (5) empl      turnover among     ty
Speci    sts averaged between     and  5 percent over the last
4 years.

Several cause    for the                          were ident fi
First, there was a      risi a                    the space acquisition
are a.   GS A ware ac t i ng to i nd i              e req ue s t s
       r than evaluating           1          ne ds of         Government.
                                  mo    ava ab       resour         and
                             planning, u          ng spa     inventory
                      ucceeding           s    nd negotiating new
                      Second       A had no control              many of
                             Funct ns       uch as acquiring spa e in
                        in s are       or                ted are      f

         n                 and handic                              short-term
 ommi tments    om agenci      ,  nd Economy                            re
 11 di tated      e t rnal influe              Fi
turnover was high         au       th   un
1 as ng requirements placed on Real
absence       a           ns ve      ining prO~1Tam0

Our major recommendat ns we      that       (l) monitor the
 ffectiven             progr   for prior    ing      uests for
       as a me ns of gaining control            a :Lng program;
(2)        no furthe   del ga ions of     ing authori     to
agenci   ; (3)  nsure that         i  b a e d on awarding
        on a   ng term     i   (4)     lop in coope t      n
with the Office of Management and Budget (OMB), legislative
       als that will affirm GSA's management role in the
space area, permit the acquisit n of space outside the


                                     8
central business area, and permit GSA to exercise judgment
in applying fire safety, handicapped, and Economy Act limitations;
(5) appoint a task force to resolve the pot.ential 1990 leasing
crisis in the National Capital Region; and (6) develop a
comprehensive training program for Real ty Specialists and
trainees in the areas of lease avlard and administration.

In commenting on the draft report, the Commissioner, PBS, and
Associate Administrat.or for Policy and Management Systems
were respons ive to the intent of our recommenda tions and,
subsequent to the completion of the audi t report, the
Administrator of GSA established a special task force to
review GSA's leasing program and implement improvements.    We
believe that the managenent initiatives and actions arising
from the task force satisfactorily address our recommendations.

Reimbursable Work Authorizations

We found that GSA was performing work for tenant agencies
under reimbursable agreements without Congressional review
and approval.    GSA procedures did not provide ass urance tha t
the major repairs and alterations had been provided for in
agency budgets, or that Congress had been informed that
funds were to be used for these projects.     In addition,
several projects funded through CSA's reimbursable program
were never requested and approved by Congress through the
prospectus process, even t.hough t.hey exceeded the $500,000
t.hreshold, because GSA t.ook t.he position that when customer
agencies submitted requests for reimbursable work, th
were, in    feet., cert.i  ng the propriety of the requests.

On March 8, 1982, we recommended that procedures be developed
which require agencies requesting reimbursable services for
public improvement projects to show that such projects have
been approved by Congress.

Managenent. concurred in t.he recommendation and plans to take
appropriate action.

Inad    te Construction        ction

A lack of adequat.e and effective inspection of the construction
of the new D.S. Border Inspection Stat.ion in Laredo, Texas,
has resulted in deficient work and resultant potenti    loss
to the Government of approximately $290,000.

Deficiencies occurred because the contractor used materials
and methods which did not meet the specifications for the
protection of an underground fuel tank, the storm drainage
system, the underground electrical distribution system, and




                                9
t     ecast roof planks and        ir structural supports.
Moreover f the contractor d      not seal the concrete pavemen t
    nsion joints as requi        under the terms of the contract.
     result of these      1  en es, the structural integrity
       roof sys tern is compromised r the life expectancy of the
other systems is substanti ly         uced, and the Government's
  tential liabili ty for       i   i  increased.

Since this building was st 1 under construction, regional
        nt official were advised of the findings in
         1981 (while the review was in progress) and immediately
    n to initiate corrective action.



    Government incurred over         80,000 in unnecessary costs
    was      addi tional f    s due to impr        administration
        cons truct ion con"tract     r th~ new Federal Office
      ng and Courthouse at Hato Rey, Puerto Rico. Audit
     disclosed that: (1)           r   uired by      contract,
   ued at     proximately $1 ,000, was either not accomplished
        paid    r twice through the issuance of a change order;
         contractor was ove           almost $190,000      commissions
           order work; a      (3) over $262,000 was       nt
    unutilized fire,       c   ty and environmental controls.
                n undetermi      amount       funds were was
              U     Courts            to occupy the space until
              f ations we      mad

                            lems were: (1) improper administration
                         of what was required by the contract
                               te negotiations in the Government's
                            tor (3) poor planni       Public
                                   l~ a    (4)        cooperation


                    dr             dat        t 4, 19   r th
                                 ed with most    the find i ng s •
                                 on the recommen tions      n ng


       om me ed in our                             January 27, 1982,
        thorough and c                            made     the
        and Construct                              at     to the
                                       and correct ve act      be
                       recurrence      these problems   Such
                  n would include:   (1)          nary ctions,
                ~  (2)             tra         r contract
        trators; (3) re         to          ice of Ins ctor




                                10
General for pos sible criminal investiga tions, where applicable ~
and (4) initiation of cIa im actions seeking to recover from
the contractor the overpayments made due to duplications and
for work not pe rformed.

As of March 31, 1982, the Regional Administrator's comments
to the final report had not been received.

Administration of Repair and Alteration Contracts Can Be
Improved

A review of regional repair and alteration contracts disclosed
that poor internal controls over construction progress reports,
construction progress payments, acceptance of change order
proposals, and delinquent contracts do not provide for effective
management. As a res    , improper advance payments of u.p to
$126,577 have been made to contractors; the Government has
paid for work that was neither necessary, authorized nor
required; substandard and incomplete work has been received~
and a Contracting Officer's designated representative exceeded
his contracting authority.

On January 13, 1982, we recommended that current GSA guidelines
and procedures be properly enforced and that prompt action
be taken when contract completion dates are not met.

The Regional Administrator concurred with our recommendations.

Ineffective Planning and Contract Enforcement of Leases
for Clinic Facilities

An examination of four clinic facilities leased by GSA for
the Veterans Administration and the Public Health Service
revealed a pattern of comIron problems in planning and
lease contract enforcement which resulted in substantial
financial losses to the Government.   Losses of approximately
$480,000 were incurred because the space leased was not
occupied on time. Additionally, a loss of almost $90,000 will
occur each year because the amount of space leased exceeds
the agencies' needs.  These reviews also identified a backlog
of lessor claims amounting to $415,000 and extensive postaward
alteration changes exceeding $2 million.

In four inspection reports issued between March 18-31, 1982,
we found that a combination of ineffective planning control
and direction of these special purpose lease construction
projects caused the problems.  Recommendations were made for
recovering credits and reducing the excess space.

Reg   nal officials concurred in our recommendations.




                              11
Regional Management of the Public Buildings Service/Information
System Needs Improvement

Our review of the management of the Public Buildings Service/
Information System (PBS/IS) in the National Capital Region
disclosed that:   (1) a lack of management over the regional
participation in the PBS/IS has reduced the usefulness of
reports generated by the system and ~y be preventing GSA
from obtaining the full benefi ts from resources spent on the
system; (2) inaccurate data in the PBS/IS was preventing
managers from effectively using the system as a management
tool for making decisions; (3) output was not controlled or
monitored resulting in unnecessary or ineffective reports;
and (4) computer equipment was not properly safeguarded,
 thus enhancing the possibility of misappropriation or misuse
of the equipment.

To correct these conditions, we recommended to the Assistant
Regional Administrator of PBS on March 24, 1982, that:
(1) procedures be established to define how operations and
management f unctions will be accomplished; (2) staff ing
criteria and appointments be finalized to allow the management
functions to be accomplished1 (3) procedures for updating
data and verifying the accuracy of reports be developed for
the various PBS/IS systems1 (4) training be conducted
throughout the region for the personnel who update the system
and verify the accuracy of PBS/IS reports; (5) a complete list
of recurring reports, by user and by system, be developed
and kept up-to-date; (6) periodic reviews of output be conducted
to identify unneeded or ineffective output; (7) actions be
taken to delete unnecessary output and to correct other
problems identified with the output; (8) all computer eqUipment
be properly safeguarded; and (9) inventory records of the
equipment be kept current.

The Acting Regional Administrator concurred with our
recommendations.

Audit of Claim for Increased Construction Costs

An audit of a $565,000 claim for increased construction costs
arising from alleged Government-caused delays, resulted in
questioned costs of $461,000. The claim was submitted
under a construction contract for masonry and stonework for
the New Haven Federal Office Building, New Haven, Connecticut.
The audit recommendations, issued on January 4, 1982, resulted
from: questioning the contractor's claimed efficiency factor
based on inadequa te supporting documentation~ questioning
the claim of the masonry subcontractor in its entirety for
denial of access to cost records1 adjusting the estimated
equipment costs to reflect actual ownership expenses;
adjusting the claimed labor hours to actual hours recorded




                             12
on daily reports and certified payrolls1 and utilizing
a more equi table formula for determining unabsorbed overhead
costs attributable to the delay.

The claim is currently pending before the GSA Board of Contract
Appe als.

Preaward Evaluation of a Pricing Proposal

Our audit evaluation of a $3.3 million pricing proposal for
architectural and engineering (AE) services relating to the
expansion and renovation of the United States Mint, Denver,
Colorado, recommended a reduction of $1.8 million in proposed
costs. The audit recommendations, issued on February 5, 1982,
resulted from adjustments to di rect labor and overhead rates,
and adjustments reflecting the technical evaluation performed
by GSA engineers.

As a result of the audit and negotiations with the AE firm,
the Government was unable to reach agreement with the contractor.
Another AE firm has been selected for the project.

    B.   Buildings Management

More Effective Administration of Contract Guard Service in
One GSA Region Could Save Almost $1 Million Annually

More effective and efficient management is needed over contract
guard service, training programs for Federal Protective
Officers (FPOs), building emergency plans, and the use of
available computer technology. On October 14, 1981, we
reported to management that requiring contract guards to
carry firearms causes GSA to forfei t potential savings of
approximately $1 million annually and creates an unnecessary
safety hazard. Additional opportunities for Government
savings are los t through adherence to the current 1 year
term on contracts for guard service.

We also found that the training of contract guards is so
inadequate that many are unfamiliar with GSA regulations and
the procedures to be taken in emergency situations. This
situation is further aggravated by:  (1) the failure of
agencies to return updated building emergency plans, resulting
in reliance upon inadequate and dated plans, and (2) failure
to adhere to guidelines governing the removal of unqualified
FPOs. Finally, we found that available computer technology
is not being used to its fullest advantage in the prevention
and solving of crimes.

We recommended that action be taken to:  (1) establish parameters
for determining the need for contract guard weapons; (2) apply




                                13
the parameters to all contract guard posts, (3) amend guard
service contr'acts to allow for the usage of Class B (unarmed)
guards; (4) use Class B contract guards at those posts where
firearms are determined not to be needed; (5) establish a
target date for the implementation of standardized training;
(6) include a clause requiring standardized tra'ining in
future contract specifications for guard services; (7) stress
to occupant agencies the need to complete and return Occupant
Erne rge ncy Plans; (8) ens ure that guidel i nes for removal of
FPOs be followed after two requalifying attempts; and (9)
ensure that more efficient use is made of computer technology.

The Regional Administrator generally agreed with all of the
findings and recommendations, and identified specific actions
planned or already taken to correct the problems. We are
conducting a similar review in another GSA region.

    C.   Supply Procurement and Distribution

Discontinuance of Plywood Repackaging Program Will Save the
Government Millions Annually

Our review of the Federal Supply Service's (FSS) plywood
repackaging program disclosed that GSA purchases commercially
packaged plywood, repackages the plywood at the FSS Supply
Distribution Facility located in Auburn, Washington, and then
ships it to other FSS facilities for ultimate sale to GSA
customers.  Discontinuance of this program would save the
Government approximately $4.6 million to $9.4 million annually.

We estimated that it costs the G9vernment between $.71 to
over $10 per sheet more for plywood packaged at the Auburn
facility than for comparable material purchased through
local wholesale sources. We also estimated that additiQnal
savings of about $5.6 million could ~e realized if agencies
purchased less expens ive grades of plywood when lesser grades
would satisfy customer requirements.

We recommended on February 4,1982, that GSA's special packaging
operation be terminated, and that GSA provide guidance to customer
agencies with an aim toward reducing the use of the more expensi~e
grades of plywood.

GSA management has undertaken the steps needed to implement these
recommendations.

Depot Modernization Program Not Cost Effective

An OIG review concluded that the mechanized bin systems bought
to date are not cost effective at GSA depots.  Specifically,
the system in use at the Stockton, California depot, procured
at a cost of about $1 million, did not increase productivity
but rather contributed to increased operating and transportation
cos ts.

                              14
Procurement of the Stockton system was justified primarily on
the basis of the equipment manufacturer's projected increase
in product ivi ty and result ing personnel savi ngs. Howeve r,
analysis of available proquctivity data for a similar system
in GSA's Belle Mead, New Jersey, depot would have shown that
the equipmen t manufacturer IS cIa im was exaggerated.

Therefore, we recommended on October 22, 1981, that additional
mechanized bin systems for GSA depots should not be procured
unless Government productivity data supports the acquisition.
We also recommended that GSA choose the most cost effective
alternative, based on life-cycle cost analysis, to correct
the mechanized bin carousel system at Stockton.

GSA management generally concurred in our recommendations and
has taken the appropriate steps to implement them.

Potential Recoveries on Laboratory and Hospital Furniture
and Equipment

A price reduction/defective pricing audit of a multiple award
contract for laboratory and hospital furniture and equipment
in GSA's Chicago Region recommended a refund of $1.3 million
to the Government. The refund is based on the contractor's
failure to disclose established pricing policies and practices,
including the existence of higher di scounts to commercial
customers.  Under the contract, the Government was to receive
discounts at least equal to the commercial customers.

The audit report, issued on February 19, 1982, also disclosed
that the contractor overcharged Government customers by
shipping them uncrated goods and then charging them the
higher prices for crated goods. We have not yet received
management's action plan on our recommendation.

Overcharges For Medical and Veterinary Equipment

An audi t of a mult iple award contract for medical and ve terinary
equipment issued on November 9, 1981, found that the offeror
did not disclose to the Government special pricelists and
price protection plans which were available to commercial
customers.   As a result, we recommended that the Government
receive a refund of $703,824 because the contractor violated
the defective pricing clause of the contract. Resolution of
the recommended recovery has been deferred until additional
OIG field work can resolve peripheral issues.




                              15
    D.   Transportation Services

Substantial Savings Available By Purchasing Vehicles

A review of the GSA motor pool in the National Capital Region
disclosed that purchasing rather than leasing motor vehicles
could save the Government millions of dollars each year. We
found that if the    ased vehicles obtained in 1980 had been
purchased, the Government would have saved $11.9 million (or
$5.3 million with        nt value factors applied) over the
pe r iod of the four  ar    ase.

This     ew also disclosed the need for improvements in the
management of leased vehicles currently on-hand. Specific
improvements include:   considering all viable alternatives
to satis   vehic       uirements1 extending leases only when
a negotiated firm price e    ts; and obtaining vehicles in
proper quantit    at appropriate locations.

In this r        we identified about $1 million ar1s1ng from
these def     ncies.  Additionally, if needed actions are not
taken, we est    te that benefits from at least $1. 3 million
in lease       nts     be lost over the next four years.

We recommended on December 30, 1981, that GSA should make
every effort to purchase rather than lease motor vehicles,
and that management of the leased vehicles on-hand should
be improved. Although GSA management did not concur with
some aspects    our findings, there was general agreement
with each    our recommendations.  Subsequent reviews of
budget requests disclosed that funds for the capitalization
of pur ased veh     s were being requested.



A joint 0     nagement   fort to identify refunds owed to
the Government because of unused or partially used airline
tickets was initiated in October 1981 at the request of the
Transportation and Public Utilities Service (TPUS).  At that
time, TPUS had begun corresponding with various airlines in an
effort to recover these funds.  During the course of these
negotiations, TPUS management requested OIG assistance, and,
consequently, a team of auditors and management personnel
was formed to conduct these reviews.  To date, these audits
have resulted in potential recoveries of approximately
$2.9 million.  More recoveries are anticipated as additional
air carriers are audited during this ongoing review.

Audit reports is     between the period of December 21, 1981,
and March 31, 1982, report the potential recoveries from the




                              16
first five airlines audited. Two additional airlines have
been reviewed and reports will be issued in the near future.

Express Delivery Services

During this reporting period, we recognized that a more efficient
method of ,procuring express delivery services could result in
significant Government economies. We informed management of
our proposal and started a· review to determine the economies
available. Management agreed wi th our proposal and expressed
a willingness to contract for express delivery services.

Later, independent of our review, management, on its own
initiative, prepared and issued a solicitation for small
package delivery services. After reviewing the solicitation
we believed it to be defective and expressed our concerns to
the Office of Acquisition Policy.  This Office reviewed the
solicitation and supported our conclusions.

Based on our position and that of Acquisition Policy, the
solicitation was cancelled. A new effort to prepare a
solicitation that will eliminate the deficiencies and include
data from user agencies is currently underway. We believe
that substantial economies can be achieved through a contracting
effort which combines: price competition; volume discounts;
consolidation of shipments and pickup points; and curtailment
of unnecessary use. We have worked with management in this
effort, providing them with the results of our review. We
will continue to be available in the future.

    E.   Surplus and Stockpile Material

Better Utilization of Excess Personal Property

Each year about 485,000 line items with an acquisition
value of about $1 billion are declared excess by Federal
activities within one GSA region alone. Although large
amounts of excess personal property are redistributed among
Federal agencies, more excess personal property could be
placed within the Federal establishment if: (1) available
property was more effectively publicized; (2) the requirements
of Federal agencies which could be met through excess property
were determined; and (3) the available computer system was
used to process excess personal property rather than manual
methods.  As a result of this last item, duplicate systems
are maintained, additional processing costs are incurred, and
usable excess personal property may not be made available to
Federal agencies before entering the donation program.

We recommended on February 10, 1982, that excess personal
property be more effectively publicized among potentially




                              17
interested Federal agencies; the needs of Federal agencies
which could be satisfied by excess personal property be more
actively determ'ined; and the available national computer system
be used to process excess personal property.

Management generally agreed wi th our recommendations.

    F.   Archival Services

Prompt Action is Needed to Preserve America's Recorded Heritage

We found that intrinsically valuable historical documents
were not being adequa tely preserved and protected by the
iilational Arch ives and Records Service (NARS).   Specifically,
we found that:      (1) many of the nation's most valuable documents
have not been treated to prevent deterioration; (2) NARS
cannot identify those intrinsically valuable documents that
should have first preservation priority; (3) less than
5 percent of the preservation effort was being devoted to
conservation efforts which physically retard document
deterioration; (4) no priority system existed that would
 identify which documents would be preserved within the
approved level of funding authoritYi and (5) the environmental
conditions at the National Archives Building are either
unacceptable or undefined.

On March 31, 1982, we recommended that immediate action be
taken to:  (1) define and clarify the meaning of intrinsically
valuable in a manner that will guide the archivist in identifying
those documents which will be preserved in their original
format; (2) ensure that immediate preservation (conservation)
treatment be given to those documents found to have the most
urgent need for such actions; (3) develop guidelines, criteria,
and a viable preservation plan that provides for prioritizing
intrinsically valuable documents for conservation treatment;
(4) present funding requests to Congress in a manner which
will clearly identify the funding devoted to intrinsically
valuable documents and the priorities that will be accomplished
at various levels of funding authority; and (5) perform
tests within the storage areas to determine whether temperature
and humidity fluctuations, as well as particulate and toxic
gas levels, are such that intrinsically valuable documents
may be subject to immediate damage.

Management concurred in the recommendations and agreed to
take corrective action.




                               18
    G.   Financial Management

The following audits identified significant weaknesses in
accounting systems, procedures, and related internal controls.
The accounting weaknesses concerned improper recording of
oblig~tions and deficiencies in maintaining imprest funds.
lnternal control weaknesses related to inadequate procedures
for systems development and implementation. These deficiencies
resulted in inaccurate reporting to Congress, and opportunities
for fraud, waste and abuse.

Management was generally responsive to the recommendations in
these reports and has taken or plans to take necessary
corrective action.

Improper Recording of Obligations

Obligations recorded for GSA appropriations were overstated
by $2.9 million at the close of FY 1980. The overstatement
included $4.2 million of expired obligations included in year
end totals, offset by $1.3 million of obligations that should
have been recorded at the close of FY 1980. These conditions
were caused by the absence of an adequate year end review of
open items and the low priority assigned to monitoring
obligations.

In eight reports issued between August 1981 and February 1982,
we recommended that: (1) open item listings be distributed
to all GSA activities having open obligations to determine
their status; (2) a suspense file be established to control
the receipt of these listings from the different activities;
(3) all obligations be fully documented and those not meeting
the requirements of Public Law 663, Section 1311, be deobligated;
and (4) obligations be recorded in the correct fiscal year.

Management generally agreed wi th the recommenda tions and
initiated appropriate action.

Controls and Safeguards Over Imprest Funds

GSA maintains 367 imprest funds nationwide totaling almost
$700,000. We reviewed a number of these imprest funds as part
of an effort coordinated by the President's Council on Integrity
and -Efficiency in Government. More than one half of the
funds reviewed were deficient in some aspect of control. The
deficiencies included the use of funds by cashiers for personal
reasons; furnishing advances to GSA employees in excess of
authorized limitations; absence of periodic, unannounced cash
verifications by independent regional officials; weaknesses




                                19
in safekeeping facilities for protecting the funds; and fund
shortages.  In addition, 18 percent of the funds audited were
found to exceed the levels established by Treasury Department
criteria. Three separate investigations were initiated as a
result of these audits.

In the seven reports issued between December 15, 1981, and
February 4, 1982, we recommended that periodic reviews of the
operations of imprest -funds be performed to ensure that
cashiers comply with established internal control procedures
and prescribed Treasury and GSA regulations; authorized
limitations on payments from the fund not be exceeded;
required periodic cash verifications be performed; and
identified deficiencies in physical safeguards over cash be
corrected. Where fund levels were found to be in excess of
needs, we recommended appropriate reductions.

Management concurred in the recommendations and initiated
corrective actions.

OIG Participation in Systems Development Activities

We are participating in GSA's ongoing effort to develop the
automated Circuit Inventory and Analysis System (CrAS).  This
system will replace the present manual process used to verify
billings   om telecommunications carriers.  Since GSA's bill for
telephone lines and related circuitry totals over $350 million
annually, manual verification requires a substantial staff
and, in the past, has resulted in major delays in payments.

We found that there was a need for more coordination and
input from potential users of the CrAS, and that a greater
commitment of staff resources was needed to effectively design
this system.  On February 12, 1982, we recommended that the
intended users become more active in the development of CrAS,
and that this project receive sufficient resources.

Management concurred and agreed to take the recommended
actions.




                             20
III.   STATUS OF SIGNIFICANT RECOMMENDATIONS MADE IN PREVIOUS
       REPORTS ON WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED


As requi red by Sect ion 5 (a) (3) of the Inspector General Act
of 1978, shown below are significant matters and recommendations
di sc losed in pr ior Inspe ctor Ge neral reports vlh ich have not
been completely resolved. Management has resolved many of the
significant problems and recommendations contained in thi.s
section and Section II of prior Reports to Congress.

Government Real Property Used for Private Use

In our preceding report, we stated that Government real property
adjacent to a new Federal office building in Hato Rey, Puerto
Rico, had been improperly used by a neighboring property owner.
In July 1973, the adjacent landowner had developed the property
and expanded a parking lot into the Government's land without
permission. Approximately $150,000 in gross parking lot revenues
had been realized by the landowner during the 7-year period.
The Government has not been reimbursed for this unauthorized use.

We recommended on April 9, 1981, that GSA take immediate action to
recover the land and initiate a claim against the adjacent
landowner to recover the value of the profi ts generated over
the last 7 years.  The Regional Administrator concurred in
our findings and recommendations. An appraiser was hired to
determine the value of the land and the back rent that could
be charged for its use. The appraisal report, which was
received on January 29, 1982, estimated the total value as
$248,000. Regional officials have initiated actions to
collect appropriate amounts from the landowner, however,
final settlement has not yet been effected. We will monitor
GSA's recovery actions until the issue is resolved.

Mosler Safe Company Value Engineering Change Proposal Should
Not Be Approved

In our last report, we advised that management had not responded
to our recommendation that the Value Engineering Change Proposal
not be accepted, and that the contractor be paid only a fair and
reasonable amount for the material handling system.

On March 19, 1982, representatives from the Office of Audits met
with officials from the Office of Contracts, the Public Buildings
Service, and the Office of General Counsel. At this meeting, the
Assistant Commissioner for Contracts stated that he had
obtained a written legal opinion which concluded that the
Government had no legal basis for rejecting the Mosler Safe
Company Value Engineering Proposal.

The legal opinion, dated Harch 10, 1982, does not address the
propriety of the contracting officer's actions.  However, it



                              21
concludes that he vias act ing wi thin the scope of his authority
and in compliance with GSA's contract clearance procedures.     The
General Counsel's opinion has been submitted to the Counsel to
the Inspector General for concurrence or non-concurrence.     Further
audit activity will be based on the IG Counsel's comments.

Lease Escalation Negotiated for $3.3 Million in Excess of
Independent Cost Projections

In our prior report, we stated that the policies and procedures
for awarding escalations for increased operating costs resulted
in the negotiation of one lease escalation for at least $3.3
million in excess of projected operating costs. We also
reported that procedures did not specifically require contract
officers to obtain independent audits of escalation proposals
in excess of SlOO,OOO.  Thus, we recommended that (1) lease
escalation proposals be evaluated by applying cost analysis
and not solely price analysisj (2) operating officials respond
in a timely manner on escalation proposals and request audit
assistance to enable them to negotiate more favorable
settlements; (3) a Certificate of Current Cost or Pricing
Data be furnished to the contracting officials with each
escalation proposal; (4) actual historical operating costs be
included as part of the proposal; and (5) actual costs be
used in establishing the basis for escalation.

The Public Buildings Service has informed us that they are
in basic agreement wi th our recommendations and, as of
December 14, 1981, all leases over S200,000 will be referred
to the OIG. These policy changes also require that an advisory
audi t be performed when any lease escalation proposal exceeds
$200,000.

The remaining recommendations have not yet been resolved with
management. As a result, formal policies have not been
established regarding the application of cost analysis to
lease escalation proposals, the need for a Certificate of
Current Cost or Pricing Data, and the use of actual cost
data in establishing bases for escalation.  A followup audit
has been scheduled which will focus on these issues.

Problems Relating to GSA's ADP System

The preceding report stated that GSA had not developed adequa te
contingency/recovery plans for its major sensitive computer systems.
We recommended that the agency prepare a detailed risk analysis
and develop a contingency/recovery plan for the FSS-19 system.
In responding to the draft report, the Assistant AQministrator
for Plans, Programs, and Financial Management concurred with
our recommenda tions and indicated that a risk analys is plan v.,as




                              22
under development.  However, in responding to the final
report, the Assistant Administrator reevaluated his position
and stated that a risk analysis plan was not needed.

This matter was brought to the Administrator's attention on
November 18, 1981. On December 21, 1981, the Administrator
replied that he had instructed responsible officials to
cooperate in resolving the matter. We will continue to
follow up until resolution is complete.

System Development and Control

As indicated in our previous report, the Office of Finance
expended over $265,000 in the development of a stockpile
billing system and then terminated the project before it was
implemented. The decision to terminate was not adequa tely
supported or documented.

We recommended that (1) the decision to terminate the stockpile
billing system be reevaluted and supported by more thorough
documentation, and (2) officials allow other referenced
systems development efforts to proceed to completion before
cancelling, in an effort to minimize a similar occurrence in
the future.   In response to our draft report, the Assistant
Administrator for Plans, Programs, and Financial Management
indicated that he did not plan to implement these recommendations.
We intend to pursue this matter further with top management.

Excessive Energy Use

Dur ing the pr ior reporting period, we identified def iciencies
in the operating procedures used in providing after-hour
heating and cooling in a major Federal building. The report
dealt primarily with the costs associated with the heating
and cooling of unused office space during other than normal
working hours. Our report disclosed that GSA was undercharging
other agencies by $57,000 per year because of the methods
used to compute charges to agencies requesting overtime
services.

Our report recommended that (1) the region determine the
feasibility of installing package units to service those
spaces which require off-hour heating and cooling on a
permanent basis, and (2) the region review their calculations
for reimbursement to ensure that agencies are fully charged
for the actual cost of providing overtime service. The
Regional Administrator responded on December 8, 1981, that
our recommendations would be studied to determine the possibility
of implementation.  This Office is awaiting the results
of the feasibility study and reimbursement review which are
expected to be completed in April 1982.




                             23
Consultant Contracts

During this reporting period, we continued our involver.:tent in
a multidisciplinary investigation of a major consultant
contractor.   Since our findings had indicated possible
wrongdoing in connection with other Government agencies, a
multiagency task    rce was organized to pursue a coordinated
investigation.   Currently, the matter is under grand jury
 investigation. We are continuing to provide investigative
support to the U.S. Attorney's Office handling the case.

Price Reduction

We continued our         ctice of coordinated reviews concerning
pr ic e red uct ionld    ct        ic i ng case s and made two s uspe ns ion
recommen t              th     area during the reporting period.
                            continu        disagreement between the
OIG and                     ng    fic als with regard to the appropriate
                                 e Reduct n clause, recoveries
                            continue to substantially exceed actual
                            Cur        y the Office of Inspector
                                  is i t     Po 1 i , and the a f f e ct e d
                                 the     lau    in order to   iminate
                                   th t in the future recommended
                                         e   tr     each other.



                       aI' Of i e has previously e     essed concern
                    ual sure   conc     and has recommended that
                   cquisition Poli    either amend the regulations
author                  of i  ividual sureties or abolish such
    ulat                 r. Under the existing regulations, the
use                   sureties does not afford the Government
     ua te    otec    n and in addi tion provides a   rtile ground
     fraudulent practices       the sureties and the contractors
        pe rformance or bid   they guarantee.

A hough the Publ     Buildings   rvice has also recommended
revis n to or abolition of the regulations authorizing the
use     ind      1 sureties, the Office of Acquisition Policy
has onclu      that the fault lies not with the regulations
  emsel     but with va ious   iIi    attributable to the
service      ying upon     guaranties of individual sureties.
Cons uen y, that office has determin       not to make any
revis n to the exi ting regu tions.

Presently, th General Accounting Office i considering a
number of   A ca          ng indiv ual sureties and some of
    conce ns whi  thi Office has ad essed to the Office of




                                   24
Acquisition Policy. Should GAO decide these cases unfavorably
to GSA or should its decision otherwise impact negatively
upon the individual surety concept as it is currently being
practiced by this agency, renewed efforts to persuade the
Office of Acquisition Policy and the Federal Procurement
Regulations Directorate to effect changes would be appropriate.

Disposal of Surplus Real Property

In our previous report, we stated that our recommendation to
increase the number of utilization surveys was unresolved
and that the matter had been referred to the Commissioner of the
Federal Property Resources Service (FPRS) by the Deputy
Administrator.

The Commissioner did not prepare the requested action plan.
Instead, he forwarded additional information to the Deputy
Administrator supporting his pos i tion. In it, the
Commissioner explained that FPRS has established its
priorities to emphasize activities which are income producing.
Therefore, the survey program has a lower priority than the
primary mission of disposing of excess and surplus real
property. The Commissioner explained that FPRS cannot increase
survey inspections without either an increase in resources
or a decrease in disposal efforts.

The Deputy Administrator agreed that the resources are not
available and, as a result, the activities receiving lower
priorities cannot be performed in the most effective manner.
We agreed that the recommendations contained in our report
could not be fully satisfied without the commitment of
additional resources and subsequently closed our report.




                             25
IV.    MATTERS REFERRED FOR CRIMINAL, CIVIL AND/OR
       ADMINISTRATIVE ACTION -- INSPECTOR GENERAL SUBPOENAS

As required by Section 5(a)(4) of the Inspector General Act
of 1978, provided is a summary of matters referred to prosecutive
authorities and prosecutions and convictions obtained during
the period October 1, 1981, to March 31, 1982.   In addition,
civil, administrative, and subpoena actions are also provided.

      A.   Criminal Referrals

Our Office referred 52 cases involving 76 subjects to the
Department of Justice for prosecutive consideration during
this reporting period. Of those referrals, prosecution was
declined on 27 cases (31 subjects).  The Department of Justice
also declined prosecution on 14 cases (40 subjects) which
were referred during earlier reporting periods. The primary
reasons for declinations were:

      although a technical violation may have existed, there was
      a lack of harm to the Government or the publici

      there was nominal dollar loss to the Government;

      the matter lacked jury appeal; and/or

      corrective action could best be initiated through other
      means.

      B.   Investigative Referrals

Our Office made 18 investigative referrals to other Federal
or State agencies for further investigative action.

      C.   Criminal Prosecutions

Figure 1 illustrates by types of subjects the number of
indictments, convictions, dismissals/acquittals, sentences,
and sentences pending during this reporting period. There is
not necessarily any correlation between the number of
indictments and convict ions dur ing the reporting period as
the convictions may have resulted from indictments returned
in previous reporting periods.




                                   26
                    SUBJECTS IN THE CRIMn~L JUSTICE SYSTEM
                    OCTOBER 1,1981, THROUGI MARCE 31,1982
            Indicbrent/     Convictions         Dismissals/                  Sentences
            Information     Pleas/Trials        Acquittals Sentences          Pending
GSA
Employees       4                 5        o          o            3             2

Firms           0                 o        o          o            o             o
Officers ,
Employees,
Principals,
am Agents
of Firms        6                 4        o          o            4             o
Other
Individuals     3                 4        o          o            4             o
Other
Goverrment
Agency
Employees       0                 o        o          o            1             o
TOTAL          13              13          o          o        12                2

                                       Figure 1
  Figure 2 illustrates the types of subjects indicted during this
  reporting period as they relate to the GSA Services. Over two-
  thirds of those indicted were non-Government individuals.


                          INDICTED SUBJECTS BY SERVICE
                     OCTOBER 1, 1981, THROUGI MARQI 31, 1982
                          ADI'S       FPRS     FSS    NARS    PBS      TPUS      Total
 GSA Employees             0           0          2       0    2         0            4
 Firms                     0           0          0       0    0         0            0

 Officers,
 Employees,
 Principals,
 am Agents of
 Firms                     0           0          3       0    2         1           6

 Other
 Individuals               0           3          0       0    0         0            3
 Other Goverrment
 Agency Employees          0           0          0       0    0         0            0

 TOTAL                     0           3          5       0    4        1            13
                                      Figure 2

                                               27
Figure 3 illustrates by the appropriate GSA Service the results
of criminal actions taken during this reporting period.



               SUMMARY BY SERVICE OF CRIMINAL ACTIONS TAKEN
                 OCTOBER 1, 1981, THROUGH MARCH 31, 1982

                  Indictment/                                           Sentences
  Service         Information     Convictions           Sentences        Pending

  ADTS                 0                 0                  0                  0

  FPRS                 3                 4                  4                  0

  FSS                  5                 2                  2                  0

  NARS                 0                 1                  1                  0

  PBS                  4                 6                  4                  2

  TPUS                 1                 0                  1                  0

  TOTAL               13                13                 12                  2


                                Figure 3

        D.   Civil Referrals and Recoveries

During this reporting period, we referred 5 cases, involving
11 subjects, for civil action to the Civil Division of the
Department of Justice or the appropriate U.S. Attorney.
The total amount of potential recoveries for these 11 civil
referrals is approxima'te1y $6 million.  For the 38 cases,
representing 76 subjects, pending at the close of the period, the
total amount of potential recoveries is approximately $13.8 million.
Figures 4 and 5 present more detailed information on this data.



             ACTION STATUS OF CIVIL REFERRALS BY SUBJECT
               OCTOBER 1, 1981, THROUGH MARCH 31, 1982

  Referrals                                                            Referrals
Pending Act ion      Refe rra1 s Made         Act ion Taken         Pend i ng Act ion
   10/1/81           10/1/81-3/31/82         10/1/81-3/31/82             3/31/82

        89                 11                      24                     76



                                 Figure 4



                                   28
               CIVI LAND CRIMINAL RECOVERIES ORDERED
              OCTOBER 1, 1981, THROUGH t1ARCH 31, 1982


                                 Criminal           Civil      Total

Fines and Penalties              $23,500          $196,000   $219,500
Settlements                             0          561,100    561,100

Res ti tut ions                    8,333           124,000    132,333

TOTAL                            $31,833          $881,100   $912,933



                                 Figure 5


        E.   Administrative Referrals

  As illustrated in Figure 6, 112 cases involving 114 subjects
  were referred to agency officials for administrative action
  during this reporting period. These referrals normally
  involved nonprosecutable wrongdoing on the part of GSA
  employees, contractors, or private individuals doing business
  wi th GSA.  In addi tion, we referred 92 cases concerni ng
  101 subjects to agency officials for informational purposes only.

        F.   Suspension and Debarment Referrals

  The Of fice of Inspector General has continued its efforts to
  make the debarment/suspension process a more effective and
  more readily used means of protecting the interests of the
  Government in connection with GSA's multi-billion dollar
  procurement activities.

  During this reporting period, we referred to agency officials
  8 cases recommending 35 subjects for suspension and 7
  cases recommending 23 subjects for debarment, as illustrated
  in Figure 7. During this period, 33 suspensions were imposed
  and 62 debarments were effected.




                                   29
                   ACTIONS TAKEN ON ADMINISTRATIVE
                    REFERRALS TO AGENCY OFFICIALS*
                OCTOBER 1, 1981, THROUGH MARCH 31, 1982

                  Pending        Referred          Admi-ni stra tive     Pending
                  10/1/81     During Period       Action Completed       3/31/82

 Cases              81              112                    110             83

 Subjects           85              114                    114             85

 *Does not include suspension/debarment recommendations.


                                  Figure 6



                   SUSPENSION AND DEBARMENT ACTIVITIES
                  OCTOBER 1, 1981, THROUGH MARCH 31, 1982


                                                CASES


                Pending Act ion     Referred             Actions    Pending Action
                   10/1/81         Bor Action           Completed       3/31/82


Suspe ns ions            8                8                 8              8

Debarments           33                   7                28             12


                                              SUBJECTS


Suspens ions         35                 35                 33*            33

Debarments           90                 23                 62*            31


  *Recommendations on 4 suspensions and 20 debarments were
   di sapproved.


                                  Figure 7




                                   30
    G.   Significant Criminal Cases

As reported in Section IV A, 52 cases involving 76 subjects
we're referred for prosecut ion dur ing this reporting period.
Selected referrals for prosecution are summarized below.

FpRS Carson City Silver Dollar Program

Nine cases were completed and referred to the Department of
Justice involving $97,410 in improper refunds from the sale
of Carson City Silver Dollars.   The cases involved individuals
in five different states who obtained the silver dollars and
cash refunds on the basis of dishonored checks. The check
amounts ranged from $3,500 to $63,000 and were the largest
of the over $1 million worth of dishonored payments, the
greater portion of wh ich has been recovered.

False Statements in FSS Small Business Set-Aside Contracts

A company not qualified for the small business set-aside program
obtained contracts in excess of $1 million from GSA and the
Defense Logistics Agency under the 100 percent set-aside
program for small businesses by establishing a second company
as a small business.  This matter was referred to the U.S.
Attorney and resulted in the indictment of two former employees
of that company.

Bad Checks Issued to FPRS for Vehicle Purchases

On December 15, 1981, in the U.S. District Court, Topeka, Kansas,
an individual was placed on probation for one year for theft of
Government property.   Investigation by the Office of Inspector
General had established that the individual issued two personal
checks totaling $10,065 with insufficient funds. The checks
were us'ed to purchase six surplus Government vehicles and a
quanti ty of tires and batteries at two separate GSA auctions.

FSS Bribery Case

On March 15, 1982, a retired GSA Supervisory Quality Inspection
Specialist, was sentenced to 12 months in prison and a $10,000
fine on one count of bribery in the U.S. District Court,
Trenton, New Jersey. The former employee previously pled
guil ty to receiving money from a GSA contractor \vh He working
at GSA.

False Representations to PBS

On February 5, 1982, a GSA Guard Service contractor pled guilty
and was sentenced on 2 counts of mail fraud and submission of
false statements to GSA in the U.S. D.istrict Court, Western




                               31
District of Virginia.   He receivecl a sentence of 3 years
probation, fine of $3,000, and was required to participate in
50 hours of communlty work.   As a result of false representations,
the defendant received approximately $880,0'00 in small business
contracts to wh ich he was not enti tIed.  Two other defendants
were also sentenced in December 1981, to one year and one day
incarceration in this case.

False Statements to Obtain GSA Contracts

On February 23, 1982, two businessmen were indicted on seven
counts of mail fraud and two counts of making false statements
in connection with a scheme to obtain small business set-aside
contracts from GSA. Their firm obtained over $1 million worth
of small business set-aside contracts from October 1978 to
July 1980.

    H.   Subpoenas

The use of subpoenas has been an effective tool in obtaining
information necessary for the proper completion of audi ts,
inspections and investigations.  We issued 7 subpoenas during
this reporting period.




                              32
v.   UNREASONABLE REFUSAL OF INFORMATION OR ASSISTANCE

The Office has encountered no instances of unreasonable
refusal of information or assistance during the reporting
period.




                              33
VI.   REVIEW OF LEGISLATION AND REGULATIONS

As required by Section 4(a) (2) of the Inspector General Act
of 1978, we reviewed numerous legislative and regulatory
initiatives, including 19 legislative matters. Among the
more important areas in which we have provided comments are
the following:

-- Supported S. 1882, a bill to prohibit Federal agencies from
contracting with any person who has been debarred or suspended
by another agency.     It would strengthen and standardize
the Government IS suspe ns ion/de ba rment sys tern. However, we
recommended that the scope of the bill's coverage be expanded
so as to include grants, Federal loan guarantees and donated
property programs. We recommended that the bill also include
a contractor certification provision, such as the one now in
effect for GSA contracts in excess of $10,000 (41 CFR subpart
5-1.12).     It would provide contracting officers with important
information necessary to make informed decisions on contractor
res pons ibi l i ty.

-- Generally supported S. 1630, the Senate version of the
revised Federal Criminal Code.  It creates needed new
sUbstantive offenses involving government processes, such as
witness bribery. We recommended that a section be added
to clarify the investigative and law enforcement authority of
OIG investigators.

-- Supported H.R. 6915, the House of Representatives version
of the Criminal Code Reform Act, with two reservations. We
opposed the downgrading of the false statement statute from a
felony to a misdemeanor, because false statements to Government
agencies are akin to perjury and may result in significant
monetary losses to the Government. We expressed concern that
the new offense of "Executing a Fraudulent Scheme," which appears
to replace the existing mail and wire fraud statutes, will
greatly limit the scope of Federal fraud prosecutions.   It
appears to exclude fraudulent activity which interferes with
Federal programs unless Federal "property" has been obtained
as a result of the fraudulent scheme.

   Generally supported S. 864, enti tIed the "Financial
Integri ty Act of 1981." It would require the head of each
executive agency to prepare an annual report on the adequacy
of the agency's system of internal accounting and administrative
controls. ~~e opposed the mandatory requirement that the OIG
investigate every allegation, as this can lead to inappropriate
use of 1 imi ted resources.




                              34
-- Generally supported the proposed Uniform Federal Procurement
System. By eliminating rigid government specifications for
common use items, such as office furniture, tools, paint,
etc., and by creating a statutory preference for the purchase
of off-the-shelf commercial products, this proposal should
reduce the instances of false ~ertification and fraudulent
claims by GSA vendors.  Increasing the small purchase
ceiling from $10,000 to $25,000 and eliminating socio-economic
requirements such as the Davis-Bacon Act wage determinations
should also reduce instances of false certification by GSA
vendors.   However, permitting payments subsequent to receipt
of a vendor's vouchers but prior to certification by a Government
official may create new opportunities for fraud.   Therefore,
ad uate safeguards should be incorporated into this procedure
to preclude this increased potential for fraud.

   Generally supported S. 1780 which provides an administrative
mechanism for the recovery of civil penalties and assessments
for false claims and statements involving Federal grants,
contracts, and programs.   It revises the earlier vers ion,
Department of Justice Draft Bill 50. We supported the inclusion
of the same administrative remedy for false statements relating
to claims and contracts as for false claims, since the former
often escapes prosecution.   It will enable GSA to recover
civilly whenever the Attorney General determines that this is
appropriate. ~ve also supported the creation of a statutory
basis for set-off, an effective administrative remedy which
enhances and clarifies our common law right of set-off.

-- Supported revisions to 31 u.s.c. 244 which would permit
GSA to engage commercial auditors, e.g., public accounting
firms, to conduct transportation audits and to thereby supplement
the GSA's Transportation and Public Utilities Service audit
staff. Since the outside auditors would be paid a negotiated
percentage of the monies that they recovered, it would be
cost free to the Government.  I t would also allow the Govern.nen t
to eliminate its two to three year backlog of unaudited
vouchers.

-- Supported an amendment to the Federal Property and
Administrative Services Act of 1949 (40 U.S.C. 756) which would
authorize GSA to add the cos t of contracting, procurement,
inspection, storage, management, distribution, and accountability
to the prices charged Federal agencies for certain supplies
and materials provided by the Federal Supply System.   It
would result in a more accurate     lection of true supply
costs in Federal agency budgets.   It would also make the
pricing structure of the Federal Supply Service consistent
with other interagency support activities, such as the Federal
Buildings Fund.




                              35
-- Supported a change in the General Provisions of the FY 1983
GSA budget appropriations bill relating to the Federal Buildings
Fund which makes funds available for the purpose of leasing
space without regard to the Economy Act. Specifically, it
would allow GSA to disregard the prohibition against entering
into a lease where the annual rental to be paid exceeds
15 percent of the fair market value of the property.     This
proh ibi tion somet imes forces an agency out of leased space into
more expensive space in newer buildings where the appraised
values are greater. We recommended, however, that GSA be
prohibited from paying rent which exceeds current commercial
rates and charges for space and services of nearest comparable
quali ty.

-- Objected to a change in the general provisions of the FY 1983
GSA appropriations bill which permits a transfer of funds among
GSA appropriations not to exceed 3 percent. To permit GSA
to reduce the budget of the Office of Inspector General
wi thout the pr ior approval of Congress would be coun ter to the
clear Congressional intent of assuring an independent OIG budget
by establishing it as a separate line item.




                              36
VII.   REPORTS ISSUED BY THE OFFICE OF INSPECTOR GENERAL
       FOR THE PERIOD OCTOBER 1, 1981 to MARCH 31, 1982

Pursuant to Section 5(a)(6) of the Inspector General Act of
1978, Appendixes I (pages 50 through 83) and I I (pages 84
and 85) list each audit and inspection report issued by
the OIG during the reporting period.




                              37
                   Part 2
OFFICE OF INSPECTOR GENERAL ACTIVITIES FOR THE
PERIOD OCTOBER 1, 1981, THROUGH MARCH 31, 1982
I.   OFFICE OF INSPECTOR GENERAL ORGANIZATION AND STAFFING

Our previous Report to the Congress ind cated that organizational
realignments were being conside ed to achieve more effective
planning and evalua ion.    The ne d for  nch realignment
stemmed from the des ire to      ov  the of planning and
evaluation systems wi thin      Of ice    Ins ctor    neral.
Detailed examination of           stems d sclosed that a simple
realignment would not ach       the desired improvements.
Therefore the Office of Ins      tor General was officially
reorganized on Februa    17 198

The reorganizat n, wh h wa             ished with n      isting
budget resources and pe sonn          ng   prov            the
following management

-- Centralized OIG~wide po                            and hor t
range     nn     nd perf                               the Off e
of Policy     ns nd Eval

   Central ized                                  oord      ted ADP
development ef                                           word
processi     and                                        th    the
Office

-- Clarified organ       nal respo
eliminat    of            functions                         ties
have been reas     ed to      Off
functions    the Office     S
to either the Off e of Aud t
as appr    ate

   Reconstituted the OIG       1               staf  function
designated as the Counsel      th       cto   General.

This reorgan at n                                 well-di ected
organizational structure.      ure                  redis tr ibution
of Office of Inspector General                org niza t ional enti ty.



Efforts are cant nuing                                       isors
more aware of their person    r
program ineff ienci    f r                      and educate
employees regarding the GSA tandards of Conduct      Since
September 1981 more than 00 rna       and  upe rv i so rs in
seven reg ns and Centr       fice           d uch trai ng
from the OIG.      the end of thi              13 addi tional
integri ty awarenes training pro ams            given to an




                               3
                       OFFICE OF INSPECTOR GENERAL
                         REDISTRIBUTION OF STAFF


                                Staffing Prior to          Staffing After
   OIG Organization             February 17, 1982         February 17, 1982

   Office of Inspector
     General                                6                      6

   Counsel to the
     Inspector General                                             9

   Office of Special Projects              21

   Office of Executive Director            15                     26

   Of fic e of Policy, Plans and
      Evaluation                                                  22

   Office of Audi ts                      266                    317

   Office of Investigations               131                    131

   Office of Inspections                   72

I                           511                   511
1-______________________________________________________ __
                                   Figure 1


   estimated 300 program managers.   This training supplements
   briefings given to GSA employees workin~ in areas with
   identified vulnerabili ties to waste and fraud.

   Inspector General Information System (IGIS)

   Considerable progress has been attained in the development of
   the IGIS since the last reporting period.  This automated management
   information system will provide OIG senior management with
   an effective and efficient means of forecasting, controlling,
   and evaluating 'lorkload. When completed, the IGIS \-lill
   establish an automated inventory of potential workload,
   identify vulnerabilities within GSA, optimize the job selection
   process, and track the disposition of report findings,
   recommendations, and referrals.  The system, targeted to




                                     39
become ope ra t    on    tember 30 v 19
the reporting      rements of the Presi            un    on
In    i    and     i     a s we 11 as all        ing
      ements de ine t   wi thin th    nspe tor    neral )\ct of


Ex

                                                         Executive
                                                                 1981.




                                                                   nt




                                o
II.   OPERATIONS AND STATISTICS

      A.   Office of Audits

The Office of Audits provides internal audit, contract audit,
and inspections services to the General Services Administration.

The contract audits provide officials within GSA procuring
goods or services from the private sector advice as to the
allowability, allocability and reasonableness of costs proposed
by the provider, as well as opinions as to the adequacy of
the provider's accounting records for the purpose of enforcing
the contract, its compliance to certain statutory requirements,
and its status as related to such considerations as small
business and supplier to the general public.

The internal audi ts deal wi th all facets of GSA operations,
and are des igned to determine whether the financial statements
covering various elements fairly present the results of
operation, whether the operations are being performed in an
economical and efficient manner, and whether the programs
assigned to GSA are being accomplished.

The inspection services provide detailed technical evaluations
of all aspects of GSA operations including evaluations of the
leasing program and lease award procedures, various aspects of
the buildings operations program, elements of the GSA construction
program, and the effectiveness and efficiency of all procurements
in the Federal supply program including evaluations of contracting
procedures and contract administration.

During the reporting period, $55.2 million in questioned costs
and recommended cost avoidance was sustained. This figure
distributes as follows:  $52.7 million in cost avoidance and
$2.5 million in recoveries sought through the collection process.
These sustained costs represent 59.7 percent of the $92.4 million
originally questioned or recommended. Because of the nature of
sustained costs, some of these result from reports issued in prior
periods.

Contract Audit Accomplishments.  During the current reporting
period, the Inspector General issued 231       ct audit
reports resulting in questioned costs of        illion.
Figure 1 shows the breakdown of those au      or this reporting
period. As of March 31, 1982, there were 11 unresolved
postaward contract audit reports, involving tr:~million,
which were issued between April 1, 1981, a~d'sePtember 30,1981.




                              41
                         SUMMARY OF EXTERNAL AUDITS
                  OCTOBER 1, 1981, THROUGH MARCH 31, 1982


                                                 Total
                              Number            Dollars         Questioned
I                           of Reports          Reviewed          Costs
IType of Audit                Issued         (in Thousands)   (in Thousands) I

IArchitect-Engineer

I
     Proposals                   31                   °
                                                 $ 16 , 31        $ 3,381

I In i tial Pric ings            46                29,782           3,630

    Change Orders                 8                 2,564           1,611

ICIa ims                         15                 5,520           3,884

I Lease      Preawards            6                 3,178             349

    Lease Al tera t ions          5                 2,125             395

    Lease Escala tions           37                 5,083           1,995
I
I Terrninat~ons                   5                    373            130
I
    Mul t iple Awards
      Preaward-Evaluations       17                94,113           4,765
      Postaward-Evaluations      29               109,133           4,497

    Cos t Incurred Audits        10                 8,418           1,013

    Others                       22                19,495             976

    TOTAL                       231              $295,815         $26,626




                                      Figure 1

Internal Audit Accomplishments.   During the current reporting
period, the Inspector General issued 90 interna    udit
reports having recommended cost avoidance of        million.
Figure 2 recaps the number of reports issued for he reporting
period by organizational element.

We also issued 73 followup reports during this reporting period.
Management has successfully implemented our recommendations
in 64 percent of the reports covered by these followups.




                                      42
                     INTERNAL AUDIT REPORTS


                                           Reports Issued
                                          10/1/81-3/31/82

                                          Number       %

 Office of Management,
 Policy, and Budge t                          25      28

  Public Buildings Service                    28      31

  Federal Sqpply Service                      18      20

 Federal Property Resources
 Service                                       4       4

 Automated Data and
 Telecommun ica tions Service                  2       2

 Na tional Arch ives and
 Records Service                               2       2

 Transportation and Public
 Utilities Service                            11     12



 TOTAL                                                99%



                             Figure 2


Inspection Accomplishments.     Dur ing the current report ing
period, the Inspector General issued 18 inspection reports
covering 127 contracts with a contract value of over $22 million.
The potential s vings identified during this reporting period
-,~'~c:-t to over   million and the identified los ses approxima te
          illion.  ig ure 3 shows the reports iss ued and res ults
     program area.




                                43
                       ItBPECTIOO AND 'llECHNICAL SERVICES DNISION
                      REPORTS ISSJED, CDNTRACTS m.\TIEWED AND RESJLTS
                        A'I"'ffi.INED FOR THE CURRENT REPORTIl'G PERIOD
                                 (OCTffiER 1, 1981 - MAR01 31, 1982)


                   Nunber of   Nunber of      Total Inllar      IOtential        Identified
                    Reports    Contracts   Value of Contracts    Savings           IDsses
Program Areas       Issued     Inspected     (in Thousands)   Jin Thousands)    (in Thousands)

LeasirB               6           6              $ 1,377            $ 1,610       $ 1,165

Cons truct ion        2          37               18,000                  289            0

Buildings
 Operations           8          79                   2,826                96            0

Federal Supply        2           5                     184               60             0


TamL
                    ~.          127             $ 22,387                          $ 1,165




                                           Figure 3


           B.    Office of Investigations

     Figure 4 illustrates the types and numbers of investigative cases
     which were opened and closed during October 1, 1981, through
     Harch 31, 1982.   The data includes the workload activity of
     both the Office of Investigations and the former Office of
     Special Projects.   The Office of Investigations now maintains
     responsibili ty for all of these reportable functions.

       In addition to our investigative case workload, we received and
       evaluated 305 complaints/allegations from sources other than the
       hotline involving GSA employees and programs which, based
       upon analysis, did not warrant conducting a formal investigation.
       These determinations were made based on the fact that the
       allegations were either not specific, did not warrant investigativ~
       action, or could best be resolved by management.




                                           44
                  INVESTIGATIVE WORKLOAD ACTIVITY
               OCTOBER 1, 1981 THROUGH MARCH 31, 1982


                          Pend i ng.*                          Pending
    Case Category         10/1/81            Opened   Closed   3/31/82
    White Collar
    Cr ime (Fraud,
    Bribery,
    Embez zlement,
    and False
    Claims)                  373              110      182       301

    Other Crimes in
    GSA-Occupied
    Space                   107                50       75        82

    Contractor
    Suspension/Debarment      82               15       44        53

    Employee Hisconduct       45               59       41        63

    Proactive
    Investiga tion            31                3       23        11

    Other                     42               43       55        30

    TOTAL                   680               280      420       540


    * The figures in this column have been adjusted to reflect
      29 cases not previously shown as open due to da ta entry
      problems.


I
                                   Figure 4

Hotline:    Calls, Letters, GAO and Other Agency Referrals.

During the reporting period, we received 654 Hotline calls
and letters, 35 GAO referrals and 9 other agency referrals.
These complaints were evaluated and, where warranted,
appropr iately referred to GSA program of ficials, other Federal
agencies or were retained by the OIG for audit, inspection
or investigative action.   Figure 5 shows a breakdown of the
disposition of these complaints.




                                        45
               DISPOSITION OF HOTLINE CMJLS, LETTERS,
                   GAO AND OTHER AGENCY REFERRALS
          DURING PERIOD OCTOBER 1, 1981, TO MARCH 31, 1982


   Audits/Inspections/      GSA Program     Other      No Further
     Investigations          Officials     Agencies   Action/Closed

            96                  72            34          496




                            Figure 5

    C.   Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General provides
expert, independent legal counsel to the Inspector General,
the Deputy Inspector General, and other officials of the
Office of Inspector General.  The Office provides technical
legal assistance to the Office of Investigations in connection
with criminal investigative matters and to the Office of Audits
with respect to the full range of issues relating to Federal
procurement law and GSA operations.  Counsel personnel also
provide assistance to the U.S. Attorney's offices, the Department
of Justice, and GSA counsel in preparing and conducting
criminal, civil, and administrative proceedings, and in
reviewing and recommending contractor suspension and debarment
actions.

The Office is also responsible for preparing and issuing
subpoenas for information, documents, and records necessary
in the performance of investigations, and for developing and
reviewing legislative and regulatory initiatives affecting the GSA.

Significant Litigation and Civil Recoveries

The OIG has sought to assure that appropriate action        taken
to obtain recovery of monies due GSA as a result of improper
contractor action or criminal conduct. Accordingly, we have
become act ively involved in providi ng Ii tiga tion and settlement
support to the Department of Justice. As a result of this
effort, significant monetary recoveries \vere obtained during
this reporting period.   For example, a judgment of $346,000




                               46
was obtained against a machinery repair contractor due to
fraudulent inflation of costs under a cost reimbursement
type contract.

Similarly, the Government reached a settlement agreement with
an instrument company and its president. The defendants
agreed to pay the Government a total of $400,00-0 in compensatory
and punitive damages as a result of numerous civil false
c la ims v io la tions.

During the reporting period, we also participated in the
recovery of over $115,000 through settlement negotiations in
various other individual actions.  As of the end of the
reporting period, the Government had received settlement
proposals in seven other matters amounting to a total over
$398,000 and referred three new matters to the Department of
Justice having a recovery potential of $150,000, $235,000,
and $750,000, respectively.

National Defense/Strategic Stockpile

As a result of various audits involving the stragetic stockpile,
irregularities were uncovered with respect to the sale of
diamonds ,and other strategic materials. The irregularities
included indications of possible collusive bidding and conspiracy
to bribe Government officials.   During the reporting period,
the OIG participa ted in a grand jury investiga tion of certain
cases in this area which led to the conviction of a GSA
employee.   Other investigations in this area are continuing.

    D.   Office of Poli   Plans and Evaluation

The Office of Policy, Plans and Evaluation was established under
the reorganization of the Office of Inspector General on
February 17, 1982.  For the first time, this Office provides
the Inspector General with the capability to centralize OIG-wide
policy development, to formula te both long and short range
planning on a coordinated basis, and to perform detailed
performance evaluations of the various OIG components against
established standards.

This Office has been staffed with multidisciplined talent from
the fields of Audits, Investigations, and Inspections.
Therefore, these professionals possess the ability to establish
policy and to perform planning and evaluative funct ns from
seve ral di fferent pe rspe ct ive s.

Initiatives already underway include: the development of an
integrated planning system; development of internal workshops to




                             47
assess vulnerab il i ties wi thin GSA programs and operations; and
establishment of a new IG issuance system to ensure the accurate
and timely flow of policy and information within the OIG.

    E.   Interagency Efforts Through the President's Council on
         Integrity and Efficiency (PCIE)

During this reporting period, the Office of Inspector General
participated in ten interagency projects, developed interagency
training courses, and notified other Inspectors General of
cos t red uct ion opportun i ties ava ilab le through GSA programs.

The President's Council selects the interagency projects
based upon recommendations of the Inspectors General and,
with their advice and input, establishes the parameters for
individual projects.    Figure 6 lists each PCIE project with
which this Office is involved.     Additionally, our Office has
also furn ished informa t ion and ass is tance to other Fede ral
agencies, a's requested.    Such coordination is evidenced by a
Treasury Department project.     One of our employees is assisting
them in the development of an interagency audit program for
reviewing payroll disbursements.

During this period, one of our employees served as the Chairman
of a Special Task Force which developed an advanced course
on fraud detection and prevention for the Training Committee
of the President's Council. The Task Force developed a
five-day training course entitled "The Prevention and Detection
of Fraud and Abuse: Hands-On Techniques." Similarly, our
representative on the PCIE Subcommittee for Investigator
Training participated in the planning and design of a I-week
seminar on procurement and contract fraud, and taught a
module on civil and administrative remedies in the pilot
presentation.

This Office is also making other Inspectors General aware of
administrative cost reduction programs offered by GSA which
can be used within other agencies.   As such, whenever a GSA
cost reduction opportunity having Government-wide applicability
is identified, the Inspector General of GSA notifies other
Inspectors General so that each can promote effective and
timely implementation wi thin their respective agencies.




                               48
      PRESIDENT'S COUNCIL ON INTEGRITY AND EFFICIENCY
                   INTERAGENCY PROJECTS


Project Name                                   Participation

Construction Contract Change Orders                 Full

IReview of Unliquidated Obligations                Limi ted

Review of Payroll Operations                       Limi ted

Government Furnished fllaterial/Property           Limi ted

Imprest Fund                                        Full

Government-Wide ADP Systems                        Limi ted

Computer Secur i ty                                Limited

Computer Matching Project                          Limi ted

Government-Wide 8(a) Eligibility                   Limi ted

Procurement Suspens ions and Debarments             Full


                            Figure 6




                               49
APPENDIXES
                                                                APPENDIX I


                                REPORT REGISTER
                                CONTRACT AUDITS

                                                                    Da te of
Number                                     Title                    Report

lA-10865-11-11           Preaward Evaluation of A-E Pricing
                         Proposal, Shepley, Bulfinch,
                         Richardson and Abbott, Contract
                         No. GS-IIB-09007                         10/07/81

IS-12 06 5-09-0 9        Preaward Evaluation of a Construc-
                         tion Contract Pricing Proposal, MDS
                         Engineering, Inc., Contract No.
                         ICA 20509/SB9248(a}-81-C-228             10/07/81

IB-IO 445-0 7-0 7        Preaward Evalua tion of Supplemental
                         A-E Proposal, Wittenberg, Delony
                         and Davidson, Inc., Supplemental
                         A-E Services, State of Arkansas          10/08/81

lL-lO 4 54-11-11         Lease Escalation Proposal,
                         Westwood Joint Venture No.4,
                         Lease No. GS-03B-60031                   10/08/81

lA-10184-08-08           Preaward Evaluation of Pricing
                         Proposal for Fixed-Price Contract,
                         Scott, Louie and Browning                10/09/81

2B-II018-10-05           Preaward Evaluation of Pricing
                         Proposal, Outboard Marine Corp.,
                         Johnson Outboards, Solicitation
                         No. 10PN-HRS-000l                        10/09/81

2B-II019-10-05           Preaward Evaluation of Pricing
                         Proposal, Outboard Marine Corp.,
                         Evi nrude Motors, Solici tation No.
                         10PN-HRS-000l                            10/09/81

2 J -12 09 7 -0 6 -0 6   Preaward Eval ua t ion of Pr ic i ng
                         Proposal, Olde English Building
                         Services, Inc., Omaha, Nebraska          10/13/81

IB-I0441-07-07           Pre award Evaluation of Supplemental
                         A-E Proposal, Jahncke Spooner
                         Associates, Supplemental A-E
                         Services, State of Louisiana              10/16/81

2J-I0659-09-09           Pre award Evaluation of a Pricing
                         Proposal for Jani torial Services,
                         Spotless Janitorial Service,
                         Request for Proposal No.
                         PBS-9PPB-81-0079                         10/16/81



                                  50
                                                           Date of
Number                              Title                  Report

2C-l0474-00-02      Letter Report - Price Reduction and
                    Defective Pricing, Bogen Division,
                    Lear Siegler, Inc., Contract No.
                    GS-00S-448 59'                        10/19/81

2A-12030-00-26-D    Evaluation of Pricing Proposal
                    Submitted by Ortho Pharmaceutical
                    Corp., Solicitation No. FCGA-Z-TC-
                    2l8-N-6-5-8l                          10/19/81

lL-12070-02-02      Lease Escalation Proposal, Bee Jay
                    Investments, 350 Brick Boulevard,
                    Bricktown, New Jersey, Lease No.
                    GS-02B-18633                          10/19/81

lA-20069-ll-ll      Preaward Evaluation of A-E Pricing
                    Proposal, Gipe Associates, Inc.,
                    Contract No. GS-llB-19009             10/20/81

2K-00582-04-04(a)   Second and Third Years Plus
                    Five Month Award Fee Contract,
                    Baucom Janitorial Service, Inc.,
                    Federal Building and Columbia
                    Professional Building, Orlando,
                    Florida, Contract No. GS-04B-16644    10/21/81

2K-00582-04-04(b)   Second and Third Years Cost Plus
                    Award Fee Contract, Baucom
                    Janitorial Service, Inc., Arnov
                    Building, Montgomery, Alabama,
                    Contract No. GS-04B-1664l             10/21/81

2K-00582-04-04(c)   First and Second Years Plus
                    Eight Month Extension Cost Plus
                    Award Fee Contract, Baucom
                    Janitorial Service, Inc., Federal
                    Building, Nashville, Tennessee,
                    Contract No. GS-04B-16872             10/21/81

lJ-l0309-09-09      Claim for Restoring GSA Farm
                    Property, John H. Lenox, Jr.,
                    License No. 9-G-CA-l054               10/21/81

lS-10705-08-08      Preaward Evaluation of Pricing
                    Proposal, Chavez Painting, Project
                    No. R-CO-80-87                        10/21/81

lK-l0809-07-07      Preaward Evaluation of Pricing
                    Proposal, Victor Palmieri and
                    Co., Inc. (Agent for Lessor),
                    Lease No. GS-07B-7029                 10/22/81


                            51
                                                            Date of
Number                             Title                    Report

ID-I0971-09-09     Claim for Increased Cost Resulting
                   from Additional A-E Services,
                   Hellmuth, Obata & Kassabaum, Inc.,
                   Contract No. GS-09B-C-8179-SF           10/22/81

2J-12029-03-03     Preaward Evaluation of Pricing
                   Proposal, Grimefighters of PA., Inc.,
                   Solicitation No. GS-03-81-R-0023        10/22/81

IB-20221-11-11     Preaward Evaluation of A-E Pricing
                   Proposal, Gipe Associates, Inc.,
                   Contract No. GS-IIB-19007               10/22/81

lA-120S9-0S-0S     Preaward Evaluation of Pricing
                   Proposal, Schirmer Engineering
                   Corp., Proposal No. GS-OSBC-90456       10/23/81

IB-20043-0S-0S     Preaward Evaluation of Proposed
                   Overhead Rate, Lorenz & Williams,
                   Inc., Proposal No. GS-OSBC-90459        10/23/81

2A-12089-00-26-D   Evaluation of Pricing Proposal,
                   Stack-On Products, Co., Solicitation
                   No. FTP-CW-F00600-N-6-18-81             10/26/81

IB-20234-11-11     Letter Report - Preaward Evaluation
                   of Supplemental A-E Pricing Proposal,
                   W. S. Fleming & Associates, Contract
                   No. GS-IIB-19010                        10/27/81

IB-I0443-07-07     Preaward Evaluation of Supplemental
                   A-E Proposal, Brown & Seales, Inc.,
                   Supplemental A-E Services, State
                   of New Mexico                           10/28/81

2C-I0499-10-10     Price Reduction and Defective
                   Pricing, Lawson Products, Inc.,
                   Contract No. GS-IOS-39481               10/28/81

2J-20123-11-11     Letter Report - Cost and Pricing
                   Data Submitted by Multivac Inc.
                   for Custodial Services at HHS North
                   Building, 4th and C Sts., S.W.,
                   Washington, D.C., Contract No.
                   GS-IIC-I0445                            10/28/81

2B-12022-03-0S     Preaward Evaluation of Pricing
                   Proposal, Bell & Howell Co.,
                   Audio Visual Products Division,
                   Solicitation No. GSA-3VPC-81-N-045-1    lO/29/81




                            52
                                                            Date of
Number                             Title                    Report

2Q-12053-00-26-D   Preaward Evaluation of Pricing
                   Proposal, The Western Union
                   Telegraph Co.                           10/29/81

2C-12054-00-05     Price Reduction and Defective
                   Pricing, Nicolet Instrument Corp.,
                   Contract No. GS-00S-86699               10/29/81

2S-11029-09-09     Letter Report - Price Reduction
                   and Defective Pricing, Data Systems
                   Division, Ampex Corp., Redwood City,
                   California, Contract Nos. GS-OOS-9211S
                   and GS-00C-90172                       10/30/81

lA-12038-03-03     Preaward Evaluation of A-E Pricing
                   Proposal, Williams and Tazewell &
                   Associates, Inc.                        10/30/81

2B-20121-10-10     Preaward Evaluation of Pricing
                   Proposal for Indoor Athletic and
                   Recreational Equipment, FSS
                   Schedule 78-I-B, Marcy Gymnasium
                   Equipment Co.                           10/30/81

2J-20124-11-11     Letter Report - Preaward Evaluation
                   of Pricing Proposal, Larry's Service
                   Co., Inc., Contract No. GS-llC-10446    10/30/81

2K-~1006-04-04     Final (Third Year) Audit of Cost Plus
                   Award Fee Contract, AR&S Enterprises,
                   Inc., Fayetteville, North Carolina,
                   Federal Building and U.S. Courthouse,
                   Winston Salem, North Carolina,
                   Contract No. GS-04B-16433               11/03/81

1B-10965-06-06     Preaward Evaluation of Price
                   Proposal, Solomon, Claybaugh, Young,
                   Architects, Inc., Kansas City,
                   Missouri                                11/04/81

lB-12076-11-11     Preaward Evaluation of Supplemental
                   A-E Pricing Proposal, The Cooper-
                   Lecky Partnership, Contract No.
                   GS-llB-19005                            11/04/81

2A-12100-00-08     Preaward Evaluation of Price
                   Proposal, Fluid and Aerosol
                   Mechanics Engineers Associates,
                   Solicitation No. FCGS-H-36388-N-
                   4-23-81                                 11/04/81




                           53
                                                             Date of
Number                              Title                    Report

2K-00582-09-04(f)   First, Second and Third Years
                    Cost Plus Award Fee Contract,
                    Baucom Janitorial Service, Inc.,
                    Federal Building and Courthouse,
                    San Di~go, California, Contract
                    No. GS-09B-0-1996                       11/05/81
lL-12071-08-08      Lease Escalation, Denver West
                    Office Building No. 2 Venture,
                    Golden, Colorado, Lease No.
                    GS-08B-09787                            11/05/81

2K-00582-11-04(d)   First, Second and Third Years
                    Cost Plus Award Fee Contracts,
                    Baucom Janitorial Service, Inc.,
                    Federal Office Building No.9,
                    Washington, D.C., Contract Nos.
                    03C7084201(NEG), 03C8102401(NEG)-2,
                    and 03C8102401(NEG)-3                   11/06/81

2K-00582-11-0A(e)   First and Second Years Plus Two
                    Time Extensions Cost Plus Award
                    Fee Contracts, Baucom Janitorial
                    Service, Inc., New Labor Building,
                    Washington, D.C., Contract Nos.
                    03C8080701(NEG) and 03C9003901(NEG}-2   11/06/81

IB-I0967-06-06      Preaward Evaluation of Price Proposal,
                    Brown-Healy-Bock, Cedar Rapids, Iowa   11/06/81

lL-00632-02-02      Lease Escalation Proposal, Multiple
                    Construction Co., 201 E. Franklin
                    Turnpike, Hohokus, New Jersey,
                    Lease No. GS-02B-17967                  11/09/81

2C-I0061-00-07      Defective Pricing Review, Surgikos,
                    A Johnson & Johnson Company,
                    Contract Nos. GS-00S-64034 and
                    GS-00S-86606                            11/09/81

2G-I0819-08-09      Audit Relative to Defective Pricing,
                    Chemonics Industries, Contract No.
                    GS-08S-35317                            11/09/81

2C-12117-00-11      Letter Report - Price Reduction and
                    Defective Pricing, Charles G. Stott
                    & Co., Contract No. GS-00S-81359        11/09/81

2S-10570-00-01      Price Reduction and Defective Pricing,
                    Compugraphic Corp., Contract No.
                    GS-00S-92122                           11/12/81


                            54
                                                             Date of
Number                               Title                   Report

lL-10955-04-04       Letter Report - Lease Escalation
                     Review, Selig Enterprises, Inc.,
                     Contract No. GS-04B-20002              11/12/81
2B-II037-10-11       Preaward Evaluation of Price
                     Proposal, Zodiac of North America,
                     Inc., Solicitation No. 10PN-HRS-000l   11/12/81
2Q-12116-00-26-D    Preaward Evaluation of Price
                    Proposal, Rapicom, Inc., Solicita-
                    tion No. GSC-CDPCE-C-K-00007            11/12/81
2J-20113-09-09-I-I-D Price Proposal for Janitorial
                     Services, Clean Rite Janitorial
                     Services, Request for Proposal No.
                     PBS-9PPB-81-0089                       11/12/81
2Q-20231-00-26-D    Preaward Evaluation of Price
                    Proposal, The Mitre Corp., Metrek
                    Division, Solicitation No.
                    GSC-CDPAS-G-OOOIO-N                     11/12/81
lC-10944-02-01      Claim for Equitable Adjustment,
                    P. J. Maffei Building Wrecking
                    Corp., Contract No. GS-02B-17,172       11/13/81
lL-10974-09-09      Lease Escalation Proposal, Tishman
                    West Management Corp., Contract
                    No. GS-09B-73066                        11/13/81
ID-I0986-11-11      Claim for Increased Costs, Fort
                    Myer Construction Corp., Contract
                    No. GS-Q3B-78385                        11/13/81
IN-12113-11-11      Base Operating Costs, Jack I. Bender
                    & Sons, Lease No. GS-IIB-I0075          11/13/81
2C-I0621-00-01      Price Reduction and Defective
                    Pricing, Davol, Inc., Contract No.
                    GS-00S-64283                            11/17/81
2B-20120-10-10      Preaward Evaluation of Price
                    Proposal for Indoor Athletic and
                    Recreational Equipment, FS Schedule
                    78-1-B, Murray and Sons Co., Inc.       11/17/81
IJ-I0948-03-03      Letter Report - Overtime Services,
                    Supplemental Lease Agreement to
                    Lease No. GS-03B-00615, Harristown
                    Development Corp.                       11/18/81



                             55
                                                             Date of
Number                               Title                   Report

2C-I0498-10-10       Price Reduction and Defective Pricing,
                     Kar Products, Inc., Contract No~
                     GS-IOS-39585                           11/19/81

IJ-20222-02-02       Rebate Under Sublease for Services
                     Not Performed at 1 Lefrak City
                     Plaza, Sublease No. GS-02B-19182       11/20/81

IB-I0966-06-06       Preaward Evaluation of Price
                     Proposal, William B. Ittner, Inc.,
                     St. Louis, Missouri                    11/23/81

lL-10996-11-11       Lease Escalation Proposal, Sixth &
                     E Associates, Lease No. GS-03B-60046   11/24/81

lK-20240-01-01      Preaward Evaluation of Price Proposal,
                    Government Center Developers Co.,
                    Boston, Massachusetts                  11/24/81

2Q-I0873-00-03      Preaward Evaluation of Price Proposal,
                    Aydin Vector Division, Solicitation
                    No. GSC-CDPCE-K-00006-N-3-7-80         11/25/81

2C-II023-09-06      Price Reduction and Defective
                    Pricing, Tennant Company, Minneapolis,
                    Minnesota                              11/25/81

IB-I0989-11-11       Preaward Evaluation of A-E Pricing
                     Proposal, Ofegro, Inc., Contract No.
                     GS-l1B-19025                           11/27/81

lS-12109-10-10       Preaward Evaluation of Price
                     Proposal, 3A Industries, Inc.,
                     Project No. RWA 08015                  11/27/81

ID-I0909-11-11       Claim for Increased Construction
                     Management Fees, Gilbane Building
                     Co., and Parametric, Inc., JV,
                     Contract No. GS-00B-01888              11/30/81

lL-10975-09-09      Lease Escalation Proposal,
                    One Embarcadero Center Venture,
                    Lease No. GS-09B-06390                  11/30/81

2B-20094-10-05      Preaward Evaluation of Price
                    Proposal, Brunswick Corp., Consumer
                    Division, Solicitation No.
                    10PN-HRS-0071                           11/30/81

2J-20113-09-09-I-2-D Price Proposal for Janitorial
                     Services, Clean Rite Janitorial
                     Services, Request for Proposal No.
                     PBS-9PPB-81-0105                       11/30/81

                              56
                                                         Date of
Number                           Title                   Report
2J-IIOIO-04-04   Price Proposal for Cleaning Service,
                 Castle & Pulaski Building, Savannah,
                 Georgia, Superb Maintenance, Inc.      12/01/81

lA-10700-06-06   Preaward Evaluation of Price
                 Proposal, Peckham, Guyton, Albers,
                 and Viets, Inc., St. Louis, Missouri   12/02/81

2B-12037-01-05   Preaward Evaluation of Proposed Unit
                 Prices, Commerce Clearing House, Inc.,
                 Solicitation No. BO/FS-B-00271         12/02/81
IS-20206-08-08   Preaward Evaluation of Pricing
                 Proposal, Vigil & Sons Mechanical
                 Co., Project No. R-CO-80-067           12/02/81

lA-10952-04-04   Preaward Evaluation of Contract
                 Proposal, McElvy, Jennewein, Stefany
                 and Howard, Inc., Conversion of the
                 Federal Building and U.S. Courthouse
                 and Post Office, Tampa, Florida        12/03/81

2C-I0637-02-04   Price Reduction and Defective
                 Pricing, Game Time, Inc., Ft. Payne,
                 Alabama, Contract No. GS-02S-30211     12/03/81

2B-20093-10-05   Preaward Evaluation of Price
                 Proposal, Brunswick Corp., Brunswick
                 Bowling Division, Solicitation No.
                 10PN-HRS-0071                          12/03/81

IT-20243-06-06   Letter Report - Evaluation of
                 Termination Settlement Proposal,
                 Ross & Baruzzini, Inc., St. Louis,
                 Missouri                               12/04/81

2A-12003-00-11   Preaward Evaluation of Price
                 Proposal, Showcase Corp., Solicita-
                 tion No. FCGE-B7-75180-N-3-12-81       12/07/81

2S-10467-00-01   Price Reduction and Defective
                 Pricing, Honeywell, Inc., Contract
                 No. GS-00C-01543                       12/08/81

lL-10957-04-04   Letter Report - Lease Escalation
                 Review, Contract No. GS-04B-15989      12/08/81

ID-12020-11-11   Claim for Increased Costs,
                 William F. Klingensmith, Inc.,
                 Contract No. GS-03B-78363, Docket
                 No. 5918                               12/08/81



                         57
                                                           Date of
Number                            Title                    Report
2J-llOll-04-0'4   Price Proposal for Janitorial
                  Services, TAM Inc., Federal Building
                  and U.S. Courthouse, Nashville,
                  Tennessee, Contract No. GS-04B-8l704    12/09/81

lC-20046-06-06    Evaluation of Change Order Proposal,
                  Hof Construction Co., Inc., St. Louis,
                  Missouri, Contract No. GS-06B-136l0    12/09/81
2B-20098-l0-06    Preaward Evaluation of Price
                  Proposal, Universal Gym Equipment,
                  Inc., Cedar Rapids, Iowa                12/09/81

2Z-ll026-07-07    Vehicle Rental Agreements, Value
                  Rent-A-Car, Inc., Contract No.
                  GS-07S-06272                            12/10/81

2C-llOOO-Ol-Ol    Letter Report - Price Reduction and
                  Defective Pricing, Bureau of National
                  Affairs, Contract No. GS-OlS-6430       12/11/81

lB-200 68-11-11   Preaward Evaluation of A-E Pricing
                  Proposal, Miller, Schuerholz, and
                  Associates, Inc., Contract No.
                  GS-llB-19008                            12/11/81

2B-20079-07-02    Preaward Evaluation of Price
                  Proposal, Airwick Professional
                  Products Division of Airwick
                  Industries, Inc., Solicitation No.
                  7CF-52l74/S5/FC                         12/14/81

lB-20260-ll-ll    Preaward Evaluation of Supplemental
                  A-E Pricing Proposal, The Leon
                  Bridges Company, Contract No.
                  GS-IIB-19006                            12/15/81

lA-l0259-ll-ll    Preaward Evaluation of A-E Pricing
                  Proposal, Shefferman and Bigelson
                  Co., Contract No. GS-00B-00997          12/16/81

2A-20233-07-06    Preaward Evaluation of Price
                  Proposal, Hill's Pet Products, Inc.,
                  Topeka, Kansas                          12/16/81

2J-2026l-04-04    Price Proposal for Cleaning Services,
                  Ballistic Missile Center and the
                  U.S. Post Office and Courthouse,
                  Huntsville, Alabama, D & D Services,
                  Inc.                                    12/16/81




                          58
                                                             Date of
Number                               Title                   Report

IN-20280-09-09      Letter Report - Proposed Lease Award
                    to Continental Desert Properties of
                    Arizona, Proposed Lease for 12;500
                    Net Usable Square Feet in Flagstaff,
                    Arizona                                 12/16/81

lL-10426-02-02      Lease Escalation Proposal, We're
                    Associates, Inc., 1 Huntington
                    Quadrangle, Huntington, New York,
                    Lease No. GS-02B-18034                  12/17/81

2S-10651-00-08      Price Redution, Dicomed Corp.,
                    Contract Nos. GS-00C-01708 and
                    GS-00C-02205                            12/18/81

lS-12092-08~08      Preaward Evaluation of Price
                    Proposal, Bernal Construction Co.,
                    Project No. R-CO-80-69                  12/18/81
IT-l0800-03-03      Termination Settlement Proposal,
                    Universal Contracting and Brick-
                    pointing Co., Inc., Contract No.
                    GS-03B-98568                            12/21/81

2K-12078-11-04      Final (First Year) Audit of Cost
                    Plus Award Fee Contract, Northern
                    Virginia Service Corp., Inc.,
                    Federal Building #2, Contract No.
                    03C8-l200-0l(NEG)                       12/21/81

lC-12l14-06-06      Evaluation of Acceleration of Work
                    Claim, Hoel-Steffen Construction
                    Co., St. Louis, Missouri, Contract
                    No. GS-06B-81l01                        12/21/81

2H-00112-04-04-D-(b) Interim Report - Requirements
                     (Indefinite) Term Service Contract
                     No. GS-04S-22715 for the Period
                     April 1, 1980, through March 31, 1981,
                     Computer Sciences Corp., Applied
                     Technology Division, Huntsville,
                     Alabama                                12/22/81
lL-20232-1l-11      Lease Escalation Proposal, North-
                    western Development Co., Lease No.
                    GS-03B-6521                             12/22/81

lD-12012-04-04      Claim for Delay and Equitable Adjust-
                    ment on Construction of the William M.
                    Colmer Federal Building and Courthouse,
                    Hattiesburg, Mississippi, Contract No.
                    GS-04B-1538l                            12/23/81


                             59
                                                           Date of
Number                             Title                   Report

lL-20053-09-09     Letter Report - Lease Escalation
                   Proposal, 606 South Olive St.,
                   Los Angeles, California, Lease No.
                   GS-09B-60255                           12/28/81

2E-202l2-00-ll     Letter Report - Preaward Review
                   of Qualification of Bidder Under
                   Walsh-Healey Public Contracts Act.,
                   Government Marketing Services, Inc.,
                   solicitation No. FCGE-Y9-75160-N-
                   4-1-81                                 12/28/81

2U-20267-00-ll     Letter Report - Preaward Review
                   of Qualification of Bidder Under
                   Walsh-Healey Public Contracts
                   Act, Government Marketing Services,
                   Inc., Solicitation No.
                   CDPCE-C-K-00007-N-4-29-80(Renewal)     12/28/81

lL-12066-02-02     Lease Escalation Proposal,
                   4790 Sheridan Drive, Inc.,
                   U.S. Border Patrol, Tonawanda,
                   New York, Lease No. GS-02B-18ll5       12/29/81
2Q-202ll-00-0l     Preaward Evaluation of Price
                   Proposal, Data Products New England,
                   Inc., Solicitation No. GSC-CDPCE-E-
                   C-00007-N-4-29-80                      12/29/81

2Q-20239-00-26-D   Preaward Evaluation of Price
                   Proposal, Nautel Main, Inc.,
                   Contract No. GS-00C-90284              12/29/81

lD-1067l-0l-03     Evaluation of Delay Claim for
                   Increased Construction Costs,
                   New Haven Federal Office Building
                   and Courthouse, New Haven,
                   Connecticut, Roubin & Janeiro, Inc.,
                   Contract No. GS-01B-01582              01/04/82

IN-20207-05-05     Preaward Evaluation of Proposed Base
                   Period Operating Costs and Real Estate
                   Taxes, Continental Assurance Co.,
                   Continental Casualty Co., Lease No.
                   GS-05B-12264                           01/04/82

2J-20ll2-09-09-D   Price Proposal for Janitorial
                   Services, Kass Management Services,
                   Inc., Request for Proposal No.
                   PBS-9pPB-8l-0l28                       01/07/82




                           60
                                                          Date of
Number                           Title                    Report
lL-20059-09-09   Letter Report - Lease Escalation
                 Proposal, California State Auto-
                 mobile Association, Lease No.
                 GS-09B-75262                            01/08/82

2H-20247-44-04   Actual Costs Associated with the
                 Food Service Contract Numbers
                 INS-FA-1-8l and INS-FA-6-8l,
                 IG International, Ft. Allen,
                 Puerto Rico                             01/08/82

2U-20088-04-04   Letter Report - Computer Data
                 Systems, Inc., Accounting System
                 Review                                  01/11/82
2J-20l0l-06-06   Preaward Evaluation of Pricing
                 Proposal, Glow Janitorial and
                 Cleaning Service, St. Louis,
                 Missouri                                01/11/82

2C-1036l-00-08   Price Reduction, NBI, Inc.,
                 Contract Nos. GS-00S-66ll2,
                 GS-00S-92004, and GS-00C-01843          01/13/82

2S-l0620-00-0l   Price Reduction and Defective
                 Pricing, Applicon, Inc., Contract
                 No. GS-00C-01684                        01/13/82

2S-ll035-00-09   Letter Report - Price Reduction and
                 Defective Pricing, Datatape Division,
                 Bell and Howell Co., Pasadena,
                 California, Contract No. GS-00S-66l95   01/13/82
2U-12074-07-07   Termination Settlement Proposal,
                 Fisk Telephone Systems, Inc.,
                 Contract No. GS-00C-70033               01/13/82
lB-20045-05-D5   Preaward Evaluation of Proposed
                 Overhead Rate, A. M. Kinney Asso-
                 ciates, Inc., Proposal No.
                 GS-05BC-90462                           01/13/82

lC-20066-ll-ll   Preaward Evaluation of Change Order
                 Proposal, The George Hyman Construc-
                 tion Co., Contract No. GS-03B-88963     01/13/82

2F-20274-05-05   Claim for Increased Costs, Consoli-
                 dated Packaging Corp., Contract No.
                 GS-05S-1l239                            01/13/82

2A-202l0-0l-03   Preaward Evaluation of Price
                 Proposal, Insulgard Corp., Solici-
                 tation No. BO/FS-L-00259                01/14/82
                         61
                                                          Date of
Number                            Title                   Report

lS-120 11-11-11   Preaward Evaluation of SBA (8a)
                  Price Proposal, Daute Contractors,
                  Inc., Contract No. GS-03B-98254        01/15/82

lL-12060-02-02    Letter Report - Lease Escalation
                  Audit, Country Plaza Associates,
                  393 Old Country Road, Mineola,
                  New York, Lease No. GS-02B-18134       01/18/82

lL-10719-09-09    Lease Escalation Proposal, Murdock
                  Management Co., Contract No.
                  GS-09B-75762                           01/19/82

2G-20106-07-07    Letter Report - Vehicle Rental
                  Agreements, American International
                  Rent-A-Car, El Paso, Texas,
                  Contract No. GS-07S-06301              01/19/82

2B-20 246-10-10   Preaward Evaluation of Price
                  Proposal for Clearing and Cleaning
                  Equipment, FS Schedule 38-I-A,
                  Desco Manufacturing Co., Inc.          01/19/82

24-6037-112       Overhead Costs Contract Change
                  Proposal, Art Metal - U.S.A., Inc.,
                  Contract No. GS-00S-29513, Modifica-
                  tion No. 1                             01/20/82

lL-10131-02-02    Letter Report - Lease Escalation
                  Proposal, Western New York Manage-
                  ment Corp., 1968 Ridge Road,
                  West Seneca, New York, Lease No.
                  GS-02B-17956                           01/20/82

lC-12024-03-02    Evaluation of Change Order Proposal,
                  Wolff & Munier, Inc., Subcontractor
                  to Joint Venture of United States
                  Steel Corp., American Bridge Div.,
                  Owens-Corning Fiberglas Corp., and
                  Wolff & Munier, Inc., Contract No.
                  GS-00B-02839                           01/20/82

lL-20055-09-09    Letter Report - F. C. Strangl III,
                  Lease No. GS-09B-70102, 2120 North
                  Central Ave., Phoenix, Arizona         01/20/82

2B-20253-00-02    Preaward Evaluation of Price
                  Proposal, Anitec Image Corp.           01/20/82

lL-10951-04-04    Letter Report - Lease Escalation
                  Proposal, Pershing Point, Atlanta,
                  Georgia, Lease No. GS-04B-15262        01/21/82


                          62
                                                           Date of
Number                            Title                    Report

2H-20248-44-04    Costs Incurred on Guard Services
                  Contract No. INS-FA-2-81 for the
                  Period August 11, 1981, through
                  October 31, 1981, Security Associates
                  International, Fort Allen, Puerto Rico 01/21/82

1C-12025-03-02    Evaluation of Change Order Proposal,
                  Wolff & Munier, Inc., Subcontractor
                  to Joint Venture of United States
                  Ste   Corp., American Bridge Div.,
                  Owens-Corni   Fiberglas Corp., and
                  Wolff & Mun er, Inc., Contract No.
                  GS-OOB-02839                            01/22/82

1N-20202-03-03    Evaluat     of Lessor's Operating
                  and Ownersh    Costs, National
                  Underground Storage, Inc., Lease
                  No. GS-03B-70240                        01/22/82

   12023-0   02   Evaluation of Change Order Proposal,
                  Wolff & Munier, Inc., Subcontractor
                  to Joint Venture of United States
                  Ste   Corp., American Bridge Div.,
                  Owens-Corning Fiberglas Corp., and
                  Wolff & Munier, Inc., Contract No.
                  GS-00B-02839                           ) 01/25/82

1D-20039-11-02    Claim for Increased Costs, The
                  Piracci Corp., Contract No.
                  GS-OOB-01358                            01/25/82

2R-20122-00-09    Preaward Evaluation of Contract
                  Pr ing Proposal, Telautograph Corp.,
                  Solicitation No. GSC-CDPCE-C-K-00007    01/25/82

1C-20278-06-06    Evaluation of Change Order Proposal,
                  Schuster Engineering, Inc., Webster
                  Groves, Missouri, Contract No.
                  GS-O   16110                            01/26/82

2S-10664-00-10    Price Reduction and Defective
                  Pricing, California Computer Products,
                  Inc., Contract No. GS-00C-01890        01/27/82

2C-I0658-00-09    Price Reduction and Defective
                  Pricing, Varian Associates, Inc.,
                  Contract Nos. GS-00S-04561 and
                  GS-00S-86577                            01/28/82




                           63
                                                             Date of
Number                              Title                    Report

2S-10661-00-10      Price Reduction and Defective
                    Pricing, Floating Point Systems,
                    Inc., Contract No. GS-00C-01850         01/28/82

2C-20089-00-05      Letter Report - Price Reduction and
                    Defective Pricing, Wavetek, Contract
                    No. GS-00S-86322                        01/28/82

2C-20090-00-05      Letter Report - Price Reduction and
                    Defective Pricing, Wavetek, Contract
                    No. GS-OOS-86340                        01/28/82

2Z-10826-07-09      Motor Vehicle Rental Contract,
                    Swift Auto Rental, Inc., Contract
                    No. GS-07S-04962                        02/01/82

2S-10473-00-04      Price Reduction and Defective
                    Pricing, Mohawk Data Sciences,
                    Herkimer, New York, Contract
                    No. GS-00C-Ol922                        02/03/82

2N-20272-11-04      Preaward Evaluation of Pricing
                    Proposal, Starlite Services, Inc.,
                    New Labor Building, Washington, D.C.,
                    Contract No. GS-IIC-IOl28, Modifica-
                    tion No. 4                              02/04/82

lL-20330-09-09      Letter Report - Proposed Lease Award,
                    Alan Priven, Solicitation No.
                    GS-09B-80693                            02/04/82

lA-10961-06-06      Preaward Evaluation of Pricing
                    Proposal, CH2M Hill, Inc.,
                    Denver, Colorado                        02/05/82

ID-20067-ll-l1      Claim for Increased Costs,
                    Otis Elevator Co., Contract No.
                    GS-03B-78048                            02/05/82

2J-I0632-04-04(a)   Letter Report - Superb Maintenance
                    Services, Inc., Revised Proposal to
                    Provide Cleaning Services in
                    Federal Offices, Memphis, Tennessee     02/08/82

lL-10978-09-09      Lease Escalation Proposal,
                    Two Embarcadero Center Associates,
                    Lease No. GS-09B-73773                  02/08/82

lL-20328-09-09      Letter Report - Preaward Audit of
                    a Proposed Lease, Hudson Investments,
                    Assignee of Hudson Investments, A
                    General Partnership, Solicitation
                    No. GS-09B-8l133                        02/09/82

                             64
                                                          Date of
Number           ________________~T~i~t~l_e~___           Report

1T-20258-11-11   Letter Report - Termination
                 Settlement Proposal, Singleton
                 Electric Co., Inc., Contract No.
                 GS-11B-023l1                            02/10/82
10-20281-11-04   Preaward Evaluation of Pricing
                 Proposal Submitted by David Volkert
                 & Associates, Consultant to Conklin
                 Rossant, New York, New York, Market
                 Square Project, Washington, D.C.        02/10/82

1B-20456-11-11   Letter Report - Preaward Evaluation
                 of Supplemental A/E Pricing Proposal,
                 Gauthier, Alvarado and Associates,
                 Inc., Contract No. GS-11B-12164         02/10/82
2C-10622-00-01   Price Reduction and Defective
                 Pricing, Davis & Geck, Contract
                 No. GS-00S-64200                        02/11/82

2M-20252-02-02   Letter Report - Cafeteria Concession
                 Operations, Lackmann Food Service,
                 Inc., Contract No. GS-02B-19163         02/11/82

1L-20305-02-02   Lease Escalation Proposal,
                 Francis B. Garvey, Lessor,
                 124-126 West Main St., Babylon,
                 New York, Lease No. GS-02B-17664        02/11/82

1L-10439-05-05   Claim for Increased Costs, Proctor
                 Community Hospital, Lease No.
                 GS-05B-12443                            02/17/82

2J-20350-04-04   Price Proposal for Guard Service,
                 Metro Atlanta, Georgia, Hyde's
                 Security Services, Inc., Contract
                 No. GS-04B-82051                        02/17/82

lL-12064-03-05   Lease Escalation Proposal, First
                 Union Management, Inc., Lease No.
                 GS-03B-60157                            02/18/82

1A-20256-l1-11   Preaward Evaluation of A-E Pricing
                 Proposal, MMM Design Group/Arthur
                 Cotton Moore Associates, Joint
                 Venture, Contract No. GS-03B-79007      02/18/82

2J-20449-02-02   Letter Report - Preaward Evaluation
                 of Pricing Proposal, Motley Shampooing
                 Co., Subcontractor the the Small
                 Business Administration, Solicitation
                 No. 2PPB-JG-19,746                     02/18/82



                          65
                                                             Date of
Number                              Title                    Report
2J-20475-06-06      Preaward Evaluation of Pricing
                    Proposal, Ridley 80uthside Janitorial
                    8ervice, Inc., Kansas City, Missouri    02/18/82

2C-I0320-00-05(a)   Price Reduction and Defective Pricing,
                    Hamilton Industries, Division of
                    American Hospital 8upply Corp.,
                    Contract No. G8-008-92470              02/19/82

2C-I0320-00-05(b)   Price Reduction and Defective Pricing,
                    Hamilton Industries, Division of
                    American Hospital 8upply Corp.,
                    Contract No. G8-008-04878              02/19/82

lL-10956-04-04      Letter Report - Lease Escalation
                    Review, G8A Building, Macon, Georgia,
                    Lease No. G8-04B-15226                  02/19/82

lL-20326-09-09      Letter Report - Request for Audit,
                    Property Tax Escalation Claim,
                    Del E. Webb Realty and Management
                    Co., Agents for Travelers Insurance
                    Co., 101 N. First Avenue, Phoenix,
                    Arizona, Lease No. G8-09B-77314         02/19/82

2B-20360-07-08      Preaward Evaluation of Pricing
                    Proposal, Economics Laboratory, Inc.,
                    801icitation No. 7CF-52089/85/7FC       02/19/82

lK-20049-06-06      Preaward Evaluation of Pricing
                    Proposal, Gilroy-8ims and Associates,
                    Ltd., 8t. Louis, Missouri, Lease No.
                    G8-06B-I0967                            02/22/82

18-12077-11-11      Preaward Evaluation of Pricing
                    Proposal, East Atlantic Construction
                    Co., Inc., Contract No. G8-11B-88036    02/23/82

18-20050-08-08      Preaward Evaluation of Pricing
                    Proposal, LTT Contractors, Inc.,
                    Project No. R-UT-80-264                 02/24/82

ID-20070-11-11      Claim for Increased Costs,
                    John L. Curlis, Inc., Contract
                    No. G8-03B-98118                        02/25/82

2H-20482-44-04      Letter Report - Actual Food 8ervice
                    Costs for Feeding the Haitian Refugees
                    at the Ft. Allen Processing Center,
                    Puerto Rico                            02/25/82




                            66
                                                         Date of
Number                           Title                   Report

lL-20331-09-09   Letter Report - Preaward Audit of a
                 Proposed Lease, Robert and Gertrude
                 Cobb, Solicitation No. GS-09B-80235    02/26/82

IT-00S17-09-10   Evaluat    of Termination Settlement
                 Claim for Construction Management
                 Services on the Federal Correctional
                 Institute, Camarillo, California,
                 Morrison-Knudsen Co., Inc.             03/01/82

2C-I0650-01-0S   Price Reduction, West Publishing
                 Co., Contract No. GS-OlS-87l59         03/01/82

ID-I0440-05-05   Claim for Increased Costs,
                 J. L. Simmons Co., Inc., Contract
                 No. GS-05BC-8l802                      03/02/82

lA-2045S-11-11   Preaward Evaluation of A-E Pricing
                 Proposal, The E/A Design Group,
                 Chartered, Contract No. GS-llB-l9042   03/02/82

IT-20262-11-11   Letter Report - Termination Settle-
                 ment Proposal, J. E. Hurley Machine
                 and Boiler Works, Inc., Contract No.
                 GS-llB-l2000                           03/03/82

10-20300-11-01   Preaward Evaluation of Construction
                 Consultant Services, Gilbane/Jackson
                 (A Joint Venture), Contract No.
                 PA-2-PC-004 (Pennsylvania Avenue
                 Development Corp.)                     03/03/82

ID-20257-11-11   Increased Costs, E. C. Ernst, Inc.,
                 Contract No. GS-03B-6l224              03/05/82

lL-10949-03-03   Preaward Audit of Supplemental
                 Lease Agreement, Gateway Center
                 Corp., Lease No. GS-03B-6l48           03/08/82

2J-20479-0S-0S   Preaward Evaluation of Pricing
                 Proposal, Jesco Resources, Inc.,
                 Proposed Contract No. GS-08B-l0573     03/08/82

2J-204S1-0S-08   Preaward Evaluation of Pricing
                 Proposal, Jesco Resources, Inc.,
                 Proposed Contract No. GS-08B-l0574     03/08/82

lL-00634-02-02   Lease Esclation Proposal, Mark Twain
                 Properties, Inc., North Main and
                 West Gray Streets, Elmira, New York,
                 Lease No. GS-02B-18583                 03/09/82


                         67
                                                                Date of
Number                                Title                     Report

IN-20454-00-ll      Letter Report - Preaward Evaluation
                    of Lease Action                            03/09/82

2R-20459-00-05      Preaward Evaluation of Price
                    Proposal, Motorola, Inc., Communica-
                    tions Group, Contract No. GS-OOC-
                    90109, Renewal No.2                        03/09/82

lA-20483-0l-0l      Preaward Evaluation of Interior
                    Design Proposal, Hugh Stubbins and
                    Associates, Project No. NMA-78655          03/10/82

lL-20485-04-04      Letter Report - Lease Escalation
                    Rev i ew, Peach tr ee Industri es, Ltd.,
                    Contract No. G5-04B-14860                  03/10/82

lL-1207l-Q8-Q8(a)   Lease Escalation Review, Denver
                    West Office Building No. 2 Venture,
                    Golden, Colorado, Lease No.
                    G5-08B-09787                               03/11/82

2J-20352-04-04      Price Proposal for Cleaning Services,
                    Federal Building and Courthouse,
                    Ft. Lauderdale, Florida, A & B
                    Maintenance, Inc.                          03/15/82

lK-20048-06-06      Preaward Evaluation of Pricing
                    Proposal, Gilroy-Sims and Associates,
                    Ltd., St. Louis, Missouri, Lease No.
                    GS-06B-10967                               03/17/82

lS-20325-07-07      Preaward Evaluation of Pricing
                    Proposal, The Craftsmen, Inc.,
                    GS-ITX-82006                               03/17/82

lL-10694-05-05      Lease Escalation Proposal, Investment
                    Property Associates, Lease No.
                    GS-05BR-9078                               03/18/82

2C-10625-00-02      Price Reduction and Defective Pricing
                    Review, Savin Corp., Contract No.
                    G5-00S-03048                               03/23/82

25-20073-00-01      Price Reduction/Defective Pricing,
                    Prime Computer, Inc., Contract No.
                    GS-OOC-01992                               03/23/82

2Z-2024l-00-03      Evaluation of Progress Payment
                    Submissions, Commuter Vehicles,
                    Inc., Contract No. GS-00S-15122,
                    Payment Nos. 12 through 22                 03/23/82



                             68
                                                            Date of
Number                                                      Report
IN-20316,..05-05   Preaward Evaluation of Proposed Base
                   Period Operating Costs, Tishman
                   Speyer Burlington, Solicitation No.
                   GS-05B-13596                            03/23/82
2X-II024-07-07     Letter Report - Mineral Lease
                   Production Accounts, Getty Oil Co.,
                   Houston, Texas                          03/24/82

2W-II039-11-11     Letter Report - Gupta Carpet
                   Professionals, Inc., Contract Nos.
                   GS-OWD-00138 & GS-OWD-I0123             03/24/82
2X-12106-07-07     Letter Report - Mineral Lease
                   Production Accounts, Mitchell Energy
                   Corp., The Woodlands, Texas             03/24/82

2X-12107-07-07     Letter Report - Mineral Lease
                   Production Accounts, McCommons Oil
                   Company, Dallas, Texas                  03/24/82

2X-12108-07-07     Letter Report - Mineral Lease
                   Production Accounts, Amoco Production
                   Co., Tulsa, Oklahoma                    03/24/82
lL-20327-09-09     Lease Escalation Proposal, John A.
                   Dermorty Inc., Contract No.
                   GS-09B-74482                            03/24/82

10-20304-11-02     Preaward Evaluation of Pricing
                   Proposal for Architect/Engineering
                   Services, Conklin Rossant, Contract
                   No. PA 2PC008                           03/25/82

2R-20338-00-01     Preaward Evaluation of Pricing
                   Proposal, Prime Computer, Inc.,
                   Solicitation No. GSC-CDPS-C-00019-
                   N-5-19-81                               03/25/82

lL-20484-04-04     Lease Escalation Proposal, M&M
                   Enterprises, Contract No.
                   GS-04B-15969                            03/25/82

lK-20507-11-11     Preaward Evaluation of Lease
                   Alteration Pricing Proposal, Parklawn
                   Joint Venture                           03/25/82

2J-20525-11-11     Preaward Evaluation of Pricing
                   Proposal, Cassidy Cleaning, Inc.,
                   Contract No. GS-llC-20l53               03/25/82




                           69
                                                           Date of
Number                             Title                   Report

2C-10655-00-09     Letter Report - Price Reduction and
                   Defective Pricing, Spectral Dymanics
                   Corp., Contract No. GS-00S-86907       03/29/82

lD-20038-03-02     Claim for Increased Costs,
                   Tishman Realty                         03/29/82

2Q-2025l-00-26-D   Price Proposal and Claim for Exemp-
                   tion of Certified Cost or Pricing
                   Data, Racal Communications, Inc.       03/29/82

lA-20505-ll-ll     Letter Report - Preaward Evaluation
                   of A-E Pricing Proposal, Henningson,
                   Durham & Richardson, Contract No.
                   GS-llB-190l9                           03/29/82

lM-20036-02-02     Costs Billed, Lasker Goldman,
                   Contract No. 50-3K-06-023              03/30/82

2J-20529-07-07     Letter Report - Preaward Evaluation
                   of Pricing Proposal, Williamson &
                   Son Janitorial Services, Inc.,
                   Russellville, Arkansas, Contract
                   No. GS-07B-21l35                       03/30/82

2W-10492-07-07     Letter Report - Kentron International,
                   Inc., Contract No. GS-07S-02355        03/31/82

lS-10687-04-04     8(a) Preaward Audit, U.S. Post
                   Office and Courthouse, Tupelo,
                   Mississippi, A. Jones Roofing Co.,
                   Inc., Contract No. Gs-04B-8l0l7        03/31/82
lA-20235-ll-ll     Evaluation of FFP Proposal,
                   Tippetts-Abbett-McCarthy-Stratton      03/31/82

lA-20279-ll-ll     Lease Escalation Proposal, Town
                   Center Management Corp., Lease No.
                   GS-03B-5788                            03/31/82

lL-20309-04-04     Lease Escalation Proposal, Koger
                   Properties, Inc., Lease No.
                   GS-04B-15149, Phoenix Building,
                   Miami, Florida                         03/31/82




                           70
                            REPORT REGISTER
                            iNTERNAL AUDITS

                                                              Date of
Number                                   Title                Report

3V-00056-02-02-P      Incorrect Shipping Weights Are
                      Resulting in Excessive Freight Costs   10/01/81

4G-20200-00-24        Letter Report - Purging of Mailing
                      Lists for Leased Space                 10/02/81

3I-00049-02-02-F(1)   Letter Fo11owup - The Atlantic City
                      Interagency Motor Pool Should Be
                      Disestablished in Order to Save
                      $ 5 0 , 0 0 0 a Yea r                  10/07/81

4D-00275-07-07-F(1)   Short Form Fo11owup - Need to
                      Strengthen Internal Controls in
                      the Award and Administration of
                      Custodial Contracts                    10/13/81

74-9076-1l3-F(2)      Second Fo1lowup - Administration
                      of VOTRAKON, Saudi-Arabian
                      Construction Project                   10/13/81

4G-00306-ll-11-F(l)   Fo1lowup - Vacant Space at
                      600 E Street, N.W., Washington, D.C.   10/13/81

4F-00493-11-1l        Annual Savings of Almost $1 Million
                      Could Be Realized and Safety
                      Improved by Removing Weapons
                      Requirements from Most Contract
                      Guard Posts                            10/14/81

73-9324-033-A-F(1)    Fo11owup - Building Management
                      Procurements at the Pentagon
                      Could Be Improved                      10/16/81

5D-I0267-04-04        Region 4 Exceeded Available Funds
                      for Budget Activity 53, Rental
                      of Space                               10/16/81

4D-00694-11-11        Operational and Environmental
                      Problems May Prevent HOTA from
                      Meeting Future Steam Demands in
                      the National Capital Region            10/20/81

5D-20223-02-02        Letter Report - President's Council
                      on Integrity and Efficiency (PCIE)
                      Anti-Fraud and Waste Project on
                      Imprest Funds                          10/21/81




                              71
                                                               Date of
Number                                   Title                 Report

30-00615-09-09        Addi tional Mechaniz ed Bin Systems
                      Should Not Be Procured Unless
                      Demonstrated to Be Cost Effective,
                      Federal Supply Service                  10/22/81

41-00621-07-07        Funds and Continuing Management
                      Emphasis Are Needed for Energy
                      Utilization and Conservation
                      Program                                 10/26/81

3K-l0407-10-l0        Administrative Controls Within the
                      Q. C. Laboratory Need Tightening for
                      More Accurate Testing and Program
                      Eff ecti veness, Reg ion 10             10/28/81

4D-I0772-09-09        Letter Report - Accident and Fire
                      Prevention Programs, Accident and
                      Fire Prevention Branch, Buildings
                      Management Division, Public Buildings
                      S erv ic e, Reg ion 9                   10/28/81

3K-12026-l0-l0        Fire Prevention and Safety Practices
                      in the Quality Control Laboratory
                      Need Greater Attention, Region 10       10/28/81

4G-12063-04-04        Realty Officers Are Not Considering
                      the Effect of Lease Escalations
                      When Extending or Adding Space at
                      a Price Higher Than the Base Price      10/29/81

5F-9004l-00-28-F(1)   Followup - Computer Security and
                      Firesafety Need to Be Improved in
                      the National Capital Region             10   0/81

5D-20229-10-10        Letter Report - Accountability and
                      Controls Over Imprest Funds Are
                      Generally Satisfactory                  10/30/81

30-80012-07-07-F(3)   Short Form Followup - Self-Service
                      Store Operations, Region 7              11/04/81

3N-10206-01-01        Deficiencies in the Awards and
                      Administration of Contracts Under
                      FSC Group 84, Region 1                  11/04/81

5D-I0270-07-07        Finance Division Needs to Improve
                      Their Review of Yearend Obligations     11/04/81

9B-12101-59-22        Letter Report - Selected Imprest
                      Fund Operations, Region 8               11/09/81




                              72
Number                                   Title

74-9425-044-F(1)      Followup - The A-E Contract Program,
                      Reg ion 4, Needs Direct ion            11/10     1

5D-00294-04-04-F(1)   Followup - Administrative Approving
                      Officials Need to Perform More
                      Detailed Revi ews of Travel Vouchers   11/10     1

30-007l6-08-08-F(1)   Short Form Followup - Improvements
                      Needed in the Inventory Procedures
                      at Self-Service Store #60, Denver,
                      Colorado                               11/10/81

77-9427-099-F(1)      Followup - Control Over Leases With
                      Escalation Provisions Needs Improve-
                      ment in Space Management Division,
                      Reg    9                               1    13   1

5D-10274-11-11        Yearend Closing - Additional
                      Improvements Needed                    1    17

4E-12084-02-02        Letter Report - Award of Contract
                        r "Tilted Arc" Sculpture             1         1

32-9325-100-F(1)      Short Form Fo11owup - FSS Multi  e
                      Award Schedules for Vehicle Parts -
                      An Unnecessary and Unmanageable
                      Program                                1

3U-00608-03-03-F(1)   Short Form Fol1owup - The Need to
                      Improve Management and Inv
                      Controls at the Pittsburgh Inter-
                      ag     Motor Pool

5D-I0264-01-01        Increased Management Attention
                      Should Be Directed to the Val i
                      and T    iness of Obligations,
                      Reg    1                               1

3U-I0550-03-03-F(l)   Short Form Followup - Fire and Saf
                      Hazards Existed at the Philadelphia
                      Interagency Motor Pool                     /19/ 1

4D-I0832-06-06        Letter Report -  Operations at th
                      Omaha Buildings Management Field
                      Office Were Satisfactory               1    1

5D-00088-05-05-F(l)   Followup - Errors and Omissions
                      Result in Serious Mismanagement of
                      Yearend Obligations and Constructiv
                      Violation of the Anti-Deficiency Act   1




                                 73
                                                                    Date of
Number                                    Title                     Report

5F-00284-08-22-F(1)   Followup - Need to Improve Security
                      and Firesafety Procedures Related
                      to Computer Operations in Region 8        11/20/81

3W-00603-ll-l1        More Reliable Computer Equipment and
                      Formalized Operating Procedures Are
                      Needed in the Office of Transportation
                      Audits                                 11/23/81

6B-00515-05-05-F(1)   Short Form Followup - Improper Pricing,
                      Award and Administration of Selected
                      8(a) Contracts and Related 8(a)
                      Program Abuses                          11/24/81

4F-10779-06-06        The Region 6 Federal Protective
                      Service Division N eros Improved
                      Planning and Evaluation for Mission
                      Accomplishment                            11/27/81

35-9418-033-F(1)      Followup - Self-Service Store
                      Operations at the Health, Education
                      and Welfare Building Could Be
                      Improved                                  11/30/81

4G-00504-11-03-F(1)   Short Form Followup - The Need to
                      Improve Management Records
                      Government-own   and Leased S   e         11/30/81

3K-I0406-1l-1l        Safety Conditions Could Be Improved
                      at the Research and Development
                      Laboratory                                11/30/81

4E-00079-09-09-F(l)   Short Form    lowup - I      ement
                      Need   in Pr       ion and Use
                      Government Estimates, Design and
                      Construction Divis    I Public
                      Buildings Service, Region 9               12/02/81

5D-10266-03-03        Need to Improve the Control of
                      Funds    Region 3                         12/03/81

30-10402-03-03                     ementat    of
                      Inv       Controls for Sf-Service
                      Store Operations, Pittsburgh,
                      Pennsylvania                              12/03/81

4F-00078-04-04-F(2)   Followup - Recommendation Still Not
                      Impl emented f Procurement Revi ew of
                      Miami, Florida, Buildings M       ement
                      Office                                    1     8/81



                               74
                                                               Date of
Number                                   Title                 Report

30-00620-01-01-F(1)   Short Form Followup - The Economic
                      Viability of the Boston Self-Service
                      Store Is in Question                    12/08/81

4G-I0S64-06-06-F(1)   Short Form Followup - Overpayments
                      to a Lessor Should Be Recovered         12/08/81

4E-00271-04-04-F(1)   Short Form Followup - Cost Reduction
                      Efforts Contributed to Design
                      Problems and Delays on the Miami
                      Courthouse Annex Project                12/09/81

3S-9330-088-F(1)      Short Form Followup - Region 8 Should
                      Evaluate Need for Self-Service Store
                      at Fort Douglas, Utah                   12/10/81

4G-OOS04-0S-05-F(1)   Short Form Fol1owup - More Accurate
                      and Timely Accounting for Vacant
                      Space Is Need                           12/11/81

4D-00687-09-09-I-1-F(1) Short Form Followup - Controls
                     Over Alteration Projects at San Jose
                     Field Office Need Improvement            12/14/81

4D-00687-09-09-I-2-F(1) Short Form Followup - Alteration
                     Project and Imprest Fund Controls
                     Should Be Str'engthened at the
                     Las Vegas Field Office                   12/14/81
4D-I0229-09-09-F(1) Short Form Followup - Alteration
                     Project and Imprest Fund Controls
                     Should Be Strengthened at the Reno
                     Field Office                             12/14/81

3C-20203-06-06        Better Contract Award Procedures
                      Could Result in Lower Moving Costs      12/15/81

SD-20226-07-07        Regional Imprest Funds                  12/15/81

SF-OOS28-11-28        Terminal Data Processing Equipment
                      Is Not Adequately Controlled in
                      the National Capital Region             12/16   1

SD-20268-01-01        Letter Report - Selected Imprest
                      Fund Operations, Region 1               12/16/81

34-9149-088-F(2)      Short Form Followup - Improvements
                      N   ed in Contractor R   ir Services
                      and Inventory Controls at Denver
                      Motor Pool                              12/17   1

3G-00036-04-04        Region 4 Procedures for Awarding
                      Contracts on Multiple Award Schedules   12/17/81


                              75
                                                                                 Date of
                                                     'l'it1e                     Report

3l-9l32-033-F(2)               Short Form F01lowup   Improving
                               Integrity of Inventory Records                12/18/81

4M-90349-08-08-F(1)                             lowup - Potential
                               Mi                   T ecommunications
                               S                ne Lines                     12/18/81

3U-00147-11-1           F(I)   Short Form F lowup - Richmond
                               In          Motor Pool Operations             12/21/81

3W-20242-1      11             L                            Unused
                               A                      Aviation, Inc.         12/21/81

50-20228-0      09             C                      t Funds,
                               R                                             12/29/81

3U-00606-11-11



                                                                             12/30/81

6B-0077 5-0 0- 1
                                                                   cations

                                                                             12/30/81

4D-
                                                                             12/30/81

 D-I07      o       7                                       cident
                                                           ram               1     0/81

      10773-09 0                                       ield a f
                                                       D  vi ion
                                                       ic    Reg      9      1    30/81
                                                   of       rom
                                                   Building Cons ruc-
                                                                             12/30/81
40-00687 0      0         1)                 F 1 owup   E t
                                         i     Field Offic                   01/07/8

4E-I077     04-04                        tion       th Construct
                                                Inc. Contract
                                                   1 F      1 Building
                                                  Atlanta Georgi ,
                                                  04B-797 2                  01/07/82

      0287 0    07                               R i       Contract
                                                Lab   Holders,
                                              No. 7PR-W- 1606 Z/7AV          01/07/82

                                       76
                                                             Date of
Number                                  Ti le

57-9186-033-F(1)              Unsatisfactory Adminis-
                               e Stockpile Sales
                                        Management
                                                            01/08/82

3N-20128-02-02     Letter         Procurement
                   P    ices for Office Supplies and
                   P      P     s                           01/08/82

52-9182-044-F(3)                       - Although
                                        Mad e, PBS and
                                    (-:'!Em
                                nu to Have Problems
                             ing Functions Associated
                                   Buildings Fund,
                                                            01/12/82

70-9178-099-F(1)                              - PAre
                   N                            th and
                   S                              9         01/12/82

5D-20225-06-06                                   in
                                                uarding
                                                            o
51-9184-055-F(2)                                  it of
                                                            o
3U-00622-10-10                                    Cars Is
                                                  Current
                                                  ns at
                                                            01/13

4F-00692- 3-0
                                                               Date of
Number                                   Title                 Report

4M-20286-05-05        Letter Report - Evaluation of ADP
                      Contractor's Complaint, Dynalectron
                      Corp., Cincinnati, Ohio, Contract No.
                      GS-OOC-60024                            01/18/82

35-9137-033-F(l)      Letter Followup - Limited Review
                      of Self-Service Store Operations        01/20/82

30-00711-06-06-F(l)   Short Form Followup - Weaknesses
                      in Region 6 Self-Service Store
                      Operations Provide Opportunities
                      for Improper Actions                    01/20/82
6G-I0933-02-02        Letter Report - Selected 8(a)
                      Contracts, Region 2                     01/21/82
5F-00552-07-28-F(l)   Followup - Computer Security and
                      Firesafety, Region 7                    01/25/82
3U-I0220-00-11        Accountability Must Be Established
                      for Individual Purchases Made With
                      National Credit Cards                   01/25/82

5D-20l67-09-09        Letter Report - Hazardous Duty
                      Payments, Buildings Management
                      Division, Public Buildings Service,
                      Region 9                                01/25/82
4E-00724-02-02        Award and Administration of the
                      Construction Contract for the
                      New Federal Office Building in
                      Puerto Rico                             01/27/82

3N-l0217-l0-l0-F(l)   Short Form Followup - Economies
                      Possible Through Streamlining of
                      Small Purchase Procedures               01/28/82

32-9134-033-F(1)      Followup - Opportunities for
                      Substantial Economies Exist in the
                      Procurement of Xerographic Paper        01/29/82

30-00746-07-07-F(1)   Short Form Followup - Employee
                      Reduction Needed in Oklahoma City
                      Self-Service Store                      01/29/82

4F-l0250-07-07-F(1)   Short Form Followup - Federal
                      Protective Service Division Needs
                      to Strengthen Controls Over Firearms,
                      Operating and Security Systems Equip-
                      ment and Confiscated Weapons            01/29/82

4F-10252-07-07-F(1)   Short Form Followup - Opportunities
                      for Improving the Roof Repair Program   01/29/82

                              78
                                                               Date of
Number                                   Title                 Report

30-10401-07-07-F(1)   Short Form Followup - Security Should
                      be Tightened at the Albuquerque Self-
                      Service Store                           01/29/82

3U-I0411-07-07-F(1)   Short Form Followup - Need to
                      Eliminate Excess Vehicles at
                      Farmington Interagency Motor Pool       01/29/82
5D-20230-11-11        Interpal Controls of Imprest Funds -
                      Some Improvements Needed                01/29/82
3N-I0214-06-06-F(1)   Short Form Followup - Improved
                      Management of the Small Purchases
                      Program Could Result in Efficiencies
                      and Economies            ~              02/01/82

3W-20264-11~11        Letter Report - Return of Unused
                      Air Fares, Braniff International
                      Airways                                 02/01/82
3N-90002-l1-1l        Significant Improvements Are
                      Needed in the Procurement of
                      Measuring and Testing Equipment
                      if Available Economies Are To Be
                      Achieved                                02/02/82
3C-00209-04-04-F(2)   Short Form Followup - Reviews of
                      Federal Property Document Log
                      (GSA Form 3117) for Status of
                      Outstanding Documents Are Not
                      Performed                               02/02/82
5P-00673-0   09       Operations of the Office of
                      External Affairs, Region 9              02/03/82
30-20470-05-05        Letter Report - Observation of
                      Physical Inventory, Chicago
                      Self-Service Store No. 46               02/03/82

3N-I0209-11-l1        Significant Economies Can Be
                      Achieved by Closing GSA's Plywood
                      Repackaging Facility                    02/04/82

5D-20269-03-03        N    to Improve the Control of
                      Imprest Funds in Region 3               02/04/82

3C-20125-ll-ll        Letter Report - Silver Recovery
                      Procedures Within GSA                   02/05/82
3W-20382-04-04        Letter Report - Return of Unused
                      Air Fares, Delta Airlines, Inc.         02/08/82




                              79
                                                               Date of
Number                                   Title                 Report

4E-00079-04-04-F(1)   Short Form Followup - Contract
                      Defects Were Not Corrected Before
                      Final Payment Was Approved and
                      Projects Were Advertised Without
                      Adequate Design Review                  02/10/82

4G-00504-09-09-F(1)   Short Form Followup - Controls to
                      Ensure Use of Available Space Were
                      Generally Effective, Public Buildings
                      Service, Region 9                       02/10/82

3C-I0757-09-09        Management of Excess Personal
                      Property Program in Region 9            02/10/82

3B-I0806-06-06        Improved Reports and Procedures
                      Are Needed for Effective Inventory
                      Management                              02/10/82

5F-I0879-00-28        Preliminary Review of the Circuit
                      Inventory and Analysis System (CIAS)    02/12/82

3W-20473-04-04        Letter Report - Return of Unused
                      Air Fares, Eastern Airlines, Inc.       02/12/82

4D-I0225-05-05-F(1)   Short Form Followup - Improved
                      Procurement Procedures Are Needed
                      at the Jeffersonville Field Office      02/16/82

5D-I0272-09-09        Expenditures in Excess of Funding
                      Authority, Region 9                     02/18/82

4D-10835-04-04        Review of Region 4's Non-Recurring
                      Reimbursable Work Authorization
                      Program                                 02/18/82

3J-II084-11-ll        Letter Report - Crafts-at-Work          02/19/82

4F-20432-08-08        Letter Report - Special Review of
                      Controls Over Firearms and Other
                      Property, Federal Protective
                      Service Division                        02/22/82

4E-10560-04-04-F      Followup - One Recommendation to
                      Initiate a Time-Phased Project That
                      Will Provide Accountability and
                      Control Over Region 4's Engineering
                      Drawings Has Not Been Fully Imple-
                      mented                                  02/24/82

70-932l-099-F(1)      Short Form Followup - Increased
                      Emphasis Is Needed in the Energy
                      Conservation Program, Public
                      Buildings Service, Region 9             02/25/82


                               80
                                                               Date of
Number                                   Title                 Report
4G-00688-01-0l-F(1)   Followup - Space Management Division
                      Audit Shows Inadequate Management
                      Control of the Award and Administra-
                      tion of Region 1 Leases                 02/26/82

5D-I0920-02-02        Manual Payments, Region 2               02/26/82

4M-20174-01-01        Letter Report - Administration of
                      ADP Service Contracts is Satisfactory   02/26/82
3N-I0215-05-05-F(1)   Followup - Streamlining Small
                      Purchasing Could Save Money and Time    03/01/82

4D-I0827-07-07-F(1)   Followup - Unauthorized Vending in
                      the Fritz G. Lanham Federal Building,
                      Region 7                                03/01/82

9B-12047-50-11        An Approach to Improving GSA's
                      Leasing Program                         03/01/82

32-9328-099-F(1)      Short Form Followup - The Multiple
                      Award Schedule Program May Not Be
                      the Most Cost Effective Method to
                      Purchase Home Entertainment
                      Equipment                               03/02/82

74-9322-055-F(1)      Two Audit Recommendations Not
                      Implemented, Audit of DCD's Contract
                      Award and Administration Practices      03/02/82

3U-00648-06-06-F(l)   Short Form Followup - Review of
                      Energy Conservation, Vehicle Fuels
                      Economy                                 03/04/82
4E-00453-07-07        PBS Contract Award and Administration   03/05/82
4D-10416-08-08        Buildings Management Field Office,
                      Denver, Public Buildings Service        03/05/82

5D-00469-06-06        Current Policy and Procedures Do
                      Not Preclude the Use of Reimbursable
                      Work Authorizations to Accomplish
                      Unauthorized Projects                   03/08/82

75-9521-099-F(2)      Short Form Followup - Need for
                      Improvement in Inventory Controls
                      Over W       and Badges, Federal
                      Protective Service Division             03/09/82

5L-I0524-06-06-F(1)   Followup - Procedural and Control
                      Weaknesses Have Caused Inefficiencies
                      in Supply Room Operations               03/09/82


                              81
                                                              Date of
Number                                   Title                Report
4D-I0768-09-09        Criteria for Evaluating Proposed
                      Prices on Reimbursable Repair and
                      Alteration Projects, Region 9          03/09/82

4F-20429-05-05        Letter Report - Controls Over
                      Firearms and Other Property,
                      Protective Services Division           03/09/82
4G-00688-06-06-F(1)   Followup - Timely Lease Actions
                      Would Improve the Effectiveness
                      of the Region 6 Leasing Program        03/11/82
4B-I0245-00-24        Inadequate and Improper Financial
                      Management of the Construction
                      Services Fund                          03/12/82
3W-20478-06-06        Letter Report - Refunds for Unused
                      Airline Tickets, Trans World Air-
                      lines, Inc.                            03/12/82
4G-00691-04-04-F      Followup - Four of Eight Recommenda-
                      tions in Audit Report Not Implemented,
                      Procedures of the Appraisal Staff
                      Do Not Control the Appraisal Process   03/15/82

5D-20165-06-06        Letter Report - Review of Hazardous
                      Duty Payment Procedures                03/18/82

3U-00648-04-04-F(1)   Followup - One Recommendation
                      Regarding Tire Inflation Was Not
                      Implemented                            03/22/82
9B-20214-5l-l0        Pr ing and Negotiation Practices
                      for PBS Construction Contract Change
                      Orders Individually Valued Under
                      $100,000 Need Improvement, Region 10   03/22/82

4D-00692-08-08        Construction and Repair and Altera-
                      tion Contracts, Public Buildings
                      Service                                03/23/82

4G-l0418-06-06-F(1)   Followup - Conscientious Lease
                      Administration Could Have Resulted
                      in Substantial Cost Savings to the
                      Government                             03/23/82

4G-I0783-04-04        Leased Space Acquisition in Region 4   03/23/82

4B-I0246-11-1l        Regional Management of the Public
                      Buildings Service/Information System
                      Needs Improvements                     03/24/82



                              82
                                                              Date of
Number                                   Title                Report
3C-ll071-04-04        Review of Operations of the Alabama
                      State Agency for Federal Property
                      Assistance                             03/24/82
3K-20375-01-01        Letter Report - Quality Assurance
                      Di vis ion, Reg ion 1                  03/26/82
30-00015-09-09-F(1)   Short Form Followup - Self-Service
                      Store Operations, Hickam Air Force
                      Base, Hawaii, Region 9                 03/29/82
5D-00088-11-11-F(1)   Short Form Followup - Increased
                      Management Control Necessary to
                      Effectively Administer the
                      Federal Building Fund                  03/29/82
6H-10589-00-21        Procedures Need To Be Implemented
                      to Assure Appropriate Use of
                      Reemployed Annui tants                 03/29/82
5D-20159-06-06        Letter Report - Unliquidated
                      Obligations and Yearend Spending,
                      FY 1981                                03/29/82
30-10208-04-04-F(1)   Short Form Fol1owup - Staffing at
                      the Atlanta, Georgia, Self-Service
                      Store Should Be Reduced                03/29/82

30-00620-10-10-F(1)   Fo11owup - Need for Improved
                      Inventory Controls for Self-Service
                      Store Operations, Seattle, Washington,
                      Region 10                              03/30/82
30-00767-06-06-F(1)   Fo11owup - Government Expenditures
                      Can Be Reduced By Improving the
                      Efficiency of the Material Returns
                      Program                                03/30/82
3K-10408-09-09        FSS Quality Control Laboratory,
                      Region 9                               03/31/82
5S-10898-00-11        Prompt Action Needed to Preserve
                      America I s Recorded Heritage          03/31/82




                               83
                                                              APPENDIX I I

                         REPORT REGISTER
                        INSPECTION REPORTS

                                                            Date of
Number                        Title                         Report

Leasing Program

NC-PBS-L-15-82     Review of Lease Award GS-05B-13812
                   EEOC - Cleveland, Ohio                   02/03/82

NC-PBS-L-15-81     Inspect ion of Ve teran Administration
                   Outpatient Clinic, Toledo, Ohio          03/18/82

NC-PBS-L-IO-81     Inspection of Veterans Administra-
                   tion Outpatient Clinic, Peoria,
                   Illinois                                 03/22/82

NC-PBS-L-05-82     Review and Evaluation of Lease Award
                   Following Unsuccessful Lessor's
                   Complaint - Lease No. GS-05B-13495       03/30/82

NC-PBS-L-11-81     Inspection of Veterans Administra-
                   tion Outpatient Clinic, Columbus,
                   Ohio                                     03/31/82

NC-PBS-L-12-81     Inspection of Public Health Service
                   Outpatient Clinic, Detroit, Michigan     03/31/82

Buildings Opera-
tions Program

S-PBS-B-13-81      Inspection Report on General
                   Services Administration Public
                   Building Service Field Office
                   Miami, Florida                           02/25/82

W-PBS-C-O 5-82     Comprehensive Fire Sprinkler Systems
                   and Relighting, U.S. Custom House
                   San Francisco, California                03/23/82

S-PBS-E-01-82      Review of GSA's Energy Program in
                   Selected Public Buildings of
                   the Miami Field Office                   03/30/82

PBS-B-O 5-82       Inspection of Contract GS-03B-9819l
                   Access Road and Drainage Structure
                   Improvements, CIA Headqua rters,
                   McLean, Virginia                         03/31/82

PBS-B-20-82        Review of Inspector General's Hot-
                   line I.G. 243                            03/31/82




                                84
                                                              Date of
Number                           Title                        Report

W- PBS- C- 04- 82      Santa Ana Field Office Inspection     02/18/82

W-PBS-C-O 6- 82        Roof Replacement, Federal Building
                       Courthouse, 450 Golden Gate Ave.
                       San Francisco, California, Contract
                       NO. GS-093-20189                      03/25/82

NC-PBS-B- 08- 82       Review of GAO Case Summary #25646     03/31/82

construction Program

PBS- C- 05- 81         Construction Contract GS-0313-88148
                       FBI Forensic Laboratory, Quantico,
                       virginia                              01/08/82

S- PBS- C- 02- 82      Construction Contract, u.S. Border
                       Inspection Station Laredo, Texas      03/12/82

Federal Supply
program

W-FSS-07-82            Proactive Review of FSC 7930, Shoe
                       Polish Procurement Stockton,
                       California                            03/09/82

S- FSS-ll- 82          Pre-award Review, AFEES,
                       Jacksonville, Florida                 03/10/82




                                    85
General Services Administration· (J)   Postageand.JE~~Paid "
OffiCe of Inspector General            U.S. General Services Administration
                                       GSA·361
                                                                               ~
                                                                              .•
Washington, DC 20405
                                                                                   U.S.MAlL

Official. Business
Penalty for Private Use $300
